<html>
<title> - DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND INDEPENDENT AGENCIES APPROPRIATIONS FOR 2000</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
  DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT,              

                                  AND

          INDEPENDENT AGENCIES APPROPRIATIONS FOR 2000   

                                

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                              FIRST SESSION
                                ________

            SUBCOMMITTEE ON VA, HUD, AND INDEPENDENT AGENCIES
                   JAMES T. WALSH, New York, Chairman


 TOM DeLAY, Texas                      ALAN B. MOLLOHAN, West Virginia
 DAVID L. HOBSON, Ohio                 MARCY KAPTUR, Ohio
 JOE KNOLLENBERG, Michigan             CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey   DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi          ROBERT E. ``BUD'' CRAMER, Jr.,
 ANNE M. NORTHUP, Kentucky             Alabama
 JOHN E. SUNUNU, New Hampshire 





 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
 Frank M. Cushing, Timothy L. Peterson, Valerie L. Baldwin, and Dena L. 
                                 Baron,

                            Staff Assistants
                                ________
                                 PART 3

                       NATIONAL SCIENCE FOUNDATION

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations

                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 57-621 O                   WASHINGTON : 1999



                  COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                    DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California               JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois          NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky               MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico                 JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia               STENY H. HOYER, Maryland
 TOM DeLAY, Texas                      ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                    MARCY KAPTUR, Ohio
 RON PACKARD, California               NANCY PELOSI, California
 SONNY CALLAHAN, Alabama               PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York              NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina     JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio                 ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma       JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                  JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan             ED PASTOR, Arizona
 DAN MILLER, Florida                   CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                  DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia                CHET EDWARDS, Texas
 RODNEY P. FRELINGHUYSEN, New Jersey   ROBERT E. ``BUD'' CRAMER, Jr.,
 ROGER F. WICKER, Mississippi            Alabama
 MICHAEL P. FORBES, New York           JAMES E. CLYBURN, South Carolina
 GEORGE R. NETHERCUTT, Jr.,            MAURICE D. HINCHEY, New York
Washington                             LUCILLE ROYBAL-ALLARD, California
 RANDY ``DUKE'' CUNNINGHAM,            SAM FARR, California
California                             JESSE L. JACKSON, Jr., Illinois
 TODD TIAHRT, Kansas                   CAROLYN C. KILPATRICK, Michigan
 ZACH WAMP, Tennessee                  ALLEN BOYD, Florida
 TOM LATHAM, Iowa
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania     




                 James W. Dyer, Clerk and Staff Director

                                  (ii)


DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND 
              INDEPENDENT AGENCIES APPROPRIATIONS FOR 2000

                              ----------                              

                                           Thursday, March 4, 1999.

                      NATIONAL SCIENCE FOUNDATION

                               WITNESSES

RITA COLWELL, DIRECTOR, NATIONAL SCIENCE FOUNDATION
EAMON KELLY, CHAIRMAN, NATIONAL SCIENCE BOARD
JOSEPH BORDOGNA, ACTING DEPUTY DIRECTOR, NATIONAL SCIENCE FOUNDATION
JOSEPH KULL, CHIEF FINANCIAL OFFICER AND DIRECTOR, OFFICE OF BUDGET 
    FINANCE AND AWARD MANAGEMENT
MARY CLUTTER, ASSISTANT DIRECTOR FOR BIOLOGICAL SCIENCES
RUZENA BAJCSY, ASSISTANT DIRECTOR FOR COMPUTER AND INFORMATION SCIENCE 
    AND ENGINEERING
EUGENE WONG, ASSISTANT DIRECTOR FOR ENGINEERING
ROBERT CORELL, ASSISTANT DIRECTOR FOR GEOSCIENCES
ROBERT EISENSTEIN, ASSISTANT DIRECTOR FOR MATHEMATICAL AND PHYSICAL 
    SCIENCES
BENNETT BERTENTHAL, ASSISTANT DIRECTOR FOR SOCIAL, BEHAVIORAL, AND 
    ECONOMIC SCIENCES
LUTHER WILLIAMS, ASSISTANT DIRECTOR FOR EDUCATION AND HUMAN RESOURCES
KARL ERB, DIRECTOR, OFFICE OF POLAR PROGRAMS
JUDITH SUNLEY, ASSISTANT TO THE DIRECTOR FOR SCIENCE POLICY AND 
    PLANNING
MARTA CEHELSKY, EXECUTIVE OFFICER, NATIONAL SCIENCE BOARD
LINDA MASSARO, DIRECTOR, OFFICE OF INFORMATION AND RESOURCE MANAGEMENT
LAWRENCE RUDOLPH, GENERAL COUNSEL
PHILIP SUNSHINE, ACTING INSPECTOR GENERAL
JULIA MOORE, DIRECTOR, OFFICE OF LEGISLATIVE AND PUBLIC AFFAIRS

                            Opening Remarks

    Mr. Walsh [presiding]. The subcommittee will come to order. 
Good morning.
    Today we'll take testimony on the Fiscal Year 2000 budget 
request from the National Science Foundation. This year's NSF 
request is 3.954 billion, an increase of $217 million or 5.5 
percent over Fiscal Year 1999.
    Testifying on behalf of the Foundation today will be its 
new director, Dr. Rita Colwell. Dr. Colwell was confirmed in 
her new position just prior to the end of the 105th Congress. 
So this will be her first opportunity to testify before the 
subcommittee as director. Also testifying this morning on 
behalf of NSF board is Dr. Eamon Kelly. We wish to welcome you 
both this morning.
    Before we proceed, I need to mention for the benefit of our 
members and guests what I expect to do today. We initially had 
planned to hold hearings this morning and this afternoon. We 
expect a short afternoon legislatively and members tend to want 
to leave as soon as the last vote is held. So what we'll do is 
go from 9:30 until 12:30 this morning and try to give everyone 
10 minutes for questions. And this decision was made very late 
last night. And stick very closely to the 10 minute rule. There 
will be some time at the end and everybody would have another 
opportunity.
    Likewise, if you both would summarize your comments as best 
you can, although I'm sure there are points you want tomake and 
you should make them. We will proceed in that vein.
    Before I yield to you for opening remarks, I would like to 
give Mr. Mollohan for any opening remarks he may have?
    Mr. Mollohan. Mr. Chairman, thank you. I have none.
    Mr. Walsh. Okay. I would like to welcome Congressman 
Frelinghuysen to the table. He is always here. He's a steady 
member and we're glad he is here this morning.
    Mr. Frelinghuysen. That means I have to be here the whole 
time? [Laughter.]
    Mr. Walsh. If you leave, Rodney, you'll believe everything 
I just said.
    Please proceed, Dr. Colwell.
    Dr. Colwell. Thank you. Mr. Chairman, Mr. Mollohan, Mr. 
Frelinghuysen, and members of the subcommittee, I thank you 
very much for allowing me the opportunity to testify on the 
budget request for Fiscal Year 2000 of the National Science 
Foundation. I do have with me the assistant directors but I 
won't take time to introduce them. But as I need to, I may call 
on them for additional information.
    I begin by noting, as you've already said, this is a first 
for many of us. It's my first appearance before the VA/HUD 
subcommittee and I gather it's the first NSF hearing for you as 
chairman. It's also the first NSF hearing for Mr. Mollohan as 
ranking minority member. And keeping with the theme, let me 
note that it's the first appearance before the subcommittee of 
my very good friend and colleague, Dr. Eamon Kelly, chairman of 
the National Science Board.
    As we begin our tenures together, let me say that I really 
do look forward to working with you, Mr. Chairman, and other 
members of the subcommittee to help strengthen our Nation's 
investment in fundamental science and engineering.
    And what I would like to do now, before I begin my brief 
presentation, is to turn to Dr. Kelly to give you the National 
Science Board's views on the NSF budget and the current state 
of science and engineering in the United States.

                     Opening Statement of Dr. Kelly

    Dr. Kelly. Thank you, Dr. Colwell. Mr. Chairman, Ranking 
Member Mollohan, and members of the subcommittee, I appreciate 
the opportunity to testify before you and request that my 
written statement be entered into the record.
    Mr. Walsh. Without objection.
    Dr. Kelly. First, let me thank the subcommittee for its 
strong and consistent support of the National Science 
Foundation. Your continuing commitment to NSF programs and 
activities in research and education is vital to our Nation's 
future. And with the demonstrated competence, vision, and 
leadership of Rita Colwell, you know your investment is in good 
hands.
    Second, on behalf of the National Science Board, I want to 
endorse the Foundation's request for $3.95 billion for Fiscal 
Year 2000. The investment represented in this budget extends 
across the frontiers of science, engineering, and technology 
and reflects the administration's strong commitment to 
fundamental research. Moreover, it reflects my personal 
conviction that scientific research is the keystone of our 
economy. And NSF's support for research has a multiplier 
effect: it is the foundation for other investments, 
governmental and non-governmental alike, in research.
    For the brief time before you, I would like to elaborate on 
my conviction and note a few important trends in U.S. science 
and engineering captured in the 1998 edition of Science and 
Engineering Indicators, which the National Science Board 
publishes biennially.
    When we look at the national picture:
    R&D funding patterns have changed substantially. The good 
news is that the total national R&D funding has never been 
higher. It now amounts to more than $200 billion annually.
    The not-so-good-news is that long-term R&D investments, 
mainly sponsored by the Federal Government, have been steadily 
losing ground to short-term investments, sponsored mainly by 
private industry. We are clearly in the process of eating our 
seed corn.
    In 1997, the Federal Government provided 30 percent of all 
R&D funds in the U.S. That's the lowest level since we started 
collecting the data. A decade ago, the Federal share was 46 
percent. Three decades ago, the Federal share was 60 percent.
    The Council on Competitiveness took stock of the national 
R&D landscape in the report, Going Global, released in 
September 1998. The Council consists of CEOs, R&D managers, and 
top officials from over 120 leading corporations, universities, 
and Government agencies. The Council came to a clear consensus 
on the need for increased public investment in fundamental 
research and education. To quote from the report: ``For the 
past 50 years, most, if not all, of the technological advances 
have been directly linked to improvements in fundamental 
understanding. Investment in discovery research creates the 
seed corn for future innovation. Government at all levels is 
the mainstay of the Nation's investments in science and 
engineering research.''
    The Council went on to add: ``Most industrial R&D managers 
are investing with an eye on the bottom line, but more than a 
handful wonder from where the next generation of breakthrough 
technologies will come.''
    The trend away from long-term research is just one of the 
critical findings in the 1998 Indicators report. It makes NSF 
investments in science and engineering more important than 
ever. Speaking as an economist, it is a fundamental economic 
error to under-fund the R&D that underpins much of our $8.5 
trillion economy.
    Mr. Chairman, the payoff flowing from our Nation's R&D 
system is enhanced by a balanced portfolio of research. 
Knowledge creation, occurring especially at institutions of 
higher education in the U.S., has become a driver of our 
economy that we almost take for granted. Commercial and medical 
breakthroughs in understanding and product development, from 
terascale computing systems, to genomics, to laser surgery, are 
rooted in the support of past NSF research investments.
    One has only to note that four of the top 10 companies in 
the Fortune 500 are high-tech companies. None of these four was 
even in the Fortune 500 a decade ago. Many sprouted from ideas 
flowing from American universities. As Federal Reserve Chairman 
Alan Greenspan recently noted: ``In a global environment in 
which prospects for economic growth now depend importantly on a 
country's capacity to develop and apply new technologies, the 
research facilities of our universities are envied throughout 
the world. The payoffs in terms of the flow of expertise, new 
products, and start-up companies, have been impressive.''
    As we look beyond this budget year, Mr. Chairman, the 
National Science Board is committed to the same wise 
investments and priority setting in science and technology that 
this committee seeks. We thank you for your support of the 
Nation's investment in research and education, especially at 
the National Science Foundation. And we look forward to working 
with you, Mr. Chairman, and the entire subcommittee to help 
sustain U.S. world leadership in science and engineering in the 
next century.
    That concludes my statement, Mr. Chairman, and go back to 
the director.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                    Opening Statement of Dr. Colwell

    Dr. Colwell. Mr. Chairman, I have a statement, which I'll 
summarize very briefly. And with your permission, I request 
that my full statement be made part of the record?
    Mr. Walsh. Certainly.
    Dr. Colwell. Dr. Kelly has touched on some very important 
trends in fundamental R&D in recent National Science Board 
reports.
    Before we turn to the details of the NSF budget request, I 
would like to mention one other long-term research trend that 
is really causing concern in the scientific community. Over the 
past 25 or so years, the overall mix of Federal investments in 
science and engineering has changed and it has changed 
significantly and pretty dramatically. It's changed primarily 
through the gains of biomedical fields and the declines in the 
physical sciences and engineering. And the very sharp nature of 
the shift in funding toward the biomedical fields has taken a 
lot of people by surprise.
    Now I would be the first to tell you about the great things 
that are happening in the biomedical fields. In fact, some of 
that funding has gone to my own research. But I assure you that 
society cannot live by biomedical bread alone.
    This trend, in fact, concerns the folks who work in the 
medical sciences. The NIH Director, Harold Varmus, discussed it 
in a speech last year. And Dr. Varmus, to hiscredit, took the 
bull by the horns when he talked about the dependence of biology and 
medicine on other fields of science.
    Now this brings me to the Fiscal Year 2000 request for NSF, 
and the need for increased investment in research and 
education.
    NSF is a unique agency. Its mission covers research in all 
fields of science and engineering, as well as education at 
every level. It's cradle to grave. We support the fundamental 
work that benefits the mission agencies like NIH, and DOE, 
right down the line. For this reason, it's very important that 
NSF continues to support investments that reach all fields, all 
disciplines--and that's the governing philosophy of our Fiscal 
Year 2000 request.
    With this request, NSF is very fast closing in on a $4 
billion milestone. The Fiscal Year 2000 request comes to about 
$3.95 billion, and that's a 5.8 percent increase over the 
current level. This is really outstanding, considering the 
constraints that are imposed by the discretionary spending 
caps.
    The headliner in this budget is the new initiative in 
information technology, and the rationale for that is very, 
very clear. As the Internet growth has gone through the roof, 
information technology, IT, has become the essential fuel for 
the Nation's economic engine. And the numbers speak for 
themselves. The latest estimates show that information 
technology has generated about a third of the recent growth in 
the U.S. economy, it accounts for 7.4 million jobs, and it pays 
wages that are about 60 percent higher than the private sector 
average.
    The challenge we have is to sustain this growth and sustain 
this record of success. And this is what has led to the 
Government-wide information technology initiative, the IT 
Squared: Information Technology for the 21st Century. It's 
across the Government. The IT squared will total $366 million 
across six agencies: NSF, NIH, DOE, NASA, NOAA, and DARPA. 
Sixty percent of this is going to go to support university-
based research. And I think that's the real win-win for 
America. The academic research investment does double duty. It 
arms and enables students with advanced IT skills.
    NSF is the lead agency for IT squared. This was recommended 
by the President's Information Technology Advisory Committee, 
known as PITAC. NSF is ready and very eager to accept this 
responsibility and challenge and we'll be putting about $146 
million into our part of IT squared in three areas of 
activities:
    The first is fundamental IT research, $100 million.
    The next is funding for a terascale computing system, $36 
million.
    And then $10 million for research on societal, ethical, and 
workforce impacts of the emerging technologies.
    In my view, Mr. Chairman, this is more than a national 
initiative, it's a national imperative. It's a classic example 
of a long-term investment in fundamental research that works 
for the common good, in fact, for the global good.
    This same sense of imperative comes through in a second 
initiative presented in the request. This is what we call 
biocomplexity. Now that's a new term for you I'm sure. 
Biocomplexity is a multi-disciplinary approach toward 
understanding our world's environment. For generations, we 
scientists have taken apart the environmental system, looked at 
the individual species, the individual habitats. We've done 
this by isolating them sort of like a Swiss watchmaker laying 
out the gears. And it's time now for a better understanding of 
how those parts function as a whole, how the whole system 
works. And one reason that it's time to tackle this task is 
that we have the ability, we have the technologies, and we are 
able to bring the technologies and the new methods together to 
grasp the complexity of our environment.
    Finally, the third major area is science and math 
education. And this remains a priority in the budget and it 
really has to. Last year we got the not-very-good-news about 
how our schools compare to other countries. By 12th grade, our 
students are near the bottom. We can and we absolutely must do 
better.
    The request sustains our current base of innovative 
activities and it plants a few new seeds that I think will help 
to address our needs. One of these promising seeds is the new 
Graduate Teaching Fellows program. Now this program may seem 
very small at just about $7.5 million, but it is an incredible 
beginning with a potential impact well beyond the dollars. It 
will broaden graduate education. It will boost science, 
engineering, and technology content in the K through 12 
classrooms.
    Finally, I wanted to emphasize how impressed I've been 
these past six months at the NSF with the quality, the 
dedication, and the professionalism of the employees at NSF at 
all levels. It is really a unique and a very, very impressive 
agency. Mr. Chairman, they do extraordinary work. At NSF, we're 
effectively managing greater numbers of increasingly complex 
proposals, but we're able to do this even though our overall 
staffing level has actually declined over the past five years. 
This subcommittee has supported our past requests for salaries 
and expenses in the administration and management area, and I 
thank you for this support and I hope it will continue. Our 
staff really can't perform the type of management and oversight 
that Congress, that you, and the public demandswithout these 
critical resources.
    Now that covers the basics of the budget request. And let 
me conclude by just adding the following: by its very timing, a 
budget for the first year of a new millennium takes on added 
significance. I think this applies doubly for NSF. The year 
2000 marks the 50th Anniversary of the National Science 
Foundation and, given the increase that we've received in this 
very tight budget environment, it's clear that this is a golden 
anniversary investment. It's also an appropriate time to step 
back and think about the long-term importance of investments in 
science and engineering. Our fast-paced world makes it hard for 
us to focus beyond today's problems, today's concerns. But it's 
a challenge to make a case for investment in our children's 
future. And I'm grateful that the VA/HUD subcommittee has taken 
a more long-term view, even though the payoffs from some of the 
basic research may come 10 or 20 years from now. The 
investments made 10 or 20 years ago account for the burst of 
investment and burgeoning economy right now.
    You have consistently supported NSF's investments over the 
years in a bipartisan manner. And for this, let me thank you 
again. I look forward to working with all of you to strengthen 
our Nation's investment in the future as we approach the next 
millennium.
    Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Thank you very much for your testimony. We'll 
begin with questions. And, as I said at the outset for the 
members who weren't here, we'll complete this hearing today at 
12:30. There will be no afternoon session because of the 
abbreviated legislative schedule, and we'll try to hold 
everyone fairly strictly to 10 minutes. And so that if there is 
time at the end, we'll get another chance to go around.
    Mr. Mollohan I know is pressed for time himself, and I 
think what I would like to do is let him go first and then I'll 
follow him.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Walsh. You're welcome.

                    funding research and development

    Mr. Mollohan. I join the chairman in welcoming you to the 
hearing, all of you.
    You were talking a bit about the Government's, about R&D, 
about how much the country spends on R&D education. I believe 
Colwell responded to that. And you made the point that the 
Federal share of R&D investment had decreased significantly. 
You're saying but I don't know what I'm saying too--you made 
the point that the Federal share of R&D had decreased markedly. 
We've had a lot of resistance to R&D funding, whether it was 
basic or applied, and we've had that debate here more in 
several years past than I think we probably do today. But I 
would like your notion on--give you an opportunity to make a 
case for R&D funding, including programs like the ATP program, 
Commerce Department Advanced Technology Program, and what your 
opinion is on how you think NSF--what leadership you think NSF 
should provide in the funding and implementation of programs, 
but also in the leadership and debate on the issue?
    Dr. Colwell. I'll respond by saying that the investment in 
basic research is absolutely critical to the health and well-
being of the country. Allow me to give an example----
    Mr. Mollohan. Is that Federal investment?
    Dr. Colwell. It's the Federal investment for the kind of 
truly exploratory research that, at the time of investments 
appears to be without application, but then we find that our 
advances in medicine, and in understanding the environment, 
trace back to fundamental research. For example, we would all 
agree that magnetic imaging capability, sonograms, fetal 
sonograms, and electrocardiograms, are all traceable to 
fundamental research in physics, mathematics, computation, that 
took place 20, 30, or 50 years ago. The investment we will make 
now in very advanced computation in the IT initiative is just 
this kind of exploratory research. It will develop new computer 
languages, looking at the possibility of a DNA-based 
computation system as opposed to silicon-based. This isn't the 
kind of research that would be done in industry.
    I will use an analogy, and forgive me if it seems trivial, 
but it's important. Visiting the University of Washington, 
Department of Computer Science, young people are doing this 
kind of research like eagles soaring in every direction, 
studying all kinds of new ways of parallel processing, 
developing new languages, new ways of image processing.
    I visited Microsoft and some of the other really terrific 
companies doing very well in the Seattle area, and they have 
brilliant people there, also eagles soaring, but it was as if 
they were in an aviary like those if you've seen at the 
National Zoo. They're confined to product-directed research. We 
really need the basic research with Federal funds that 
ultimately develops the new language, the next stage of 
computation.
    And I think the case is similar in physics. Physics and 
engineering have become relatively under-funded. They used to 
account for nearly 50 percent of Federal research and it's down 
to more like 20 or 30 percent. Yet, in basic physics, we see 
the magnetic imaging used in hospitals tracing back to the 
basic research that was done in physics. I read in today's 
paper that now cyclotron applications in medicine make it 
possible to give even greater resolution of images for 
biomedical application.
    Mr. Mollohan. So you're making a strong case for basic R&D.
    Dr. Colwell. Yes.

                      advanced technology program

    Mr. Mollohan. What about the advanced technology program, 
which is a little bit maybe in between? I don't think we're 
trying to commercialize anything in that process, but if you 
talk about that level of research and the appropriateness of 
the Federal Government to support funding in that area?
    Dr. Colwell. Yes, having spent the----
    Mr. Mollohan. First of all, do you support the agency 
program?
    Dr. Colwell. I think it's important, yes, sir. I think it's 
very important, and I'll tell you why. The last 10 years, I 
helped establish the Maryland Biotechnology Institute. And that 
was done to bring the State of Maryland into the forefront of 
the burgeoning biomedical, biotechnology area. And it was very 
important to have linkages with industry. The linkages were for 
the kinds of research that had gone beyond just the idea in the 
investigator's head and maybe a few experiments had indicated, 
yes, the idea was pretty good and probably had an application. 
It is that stage that as Congressman Ehlers refers to as the 
``Valley of Death'', where there is no funding for the idea to 
get to the next stage where it can be picked up and developed 
as a product, but yet it's still in an innovative, creative 
developing stage.
    So it's very important for our country to have this kind of 
investment period of time for industry and universities to be 
working together. The Japanese have perfected that. They're not 
as successful in the basic research arena where we excel, but 
they're very good in spinning off. And I think this has 
strengthened the capacity of our country to do that spinning 
off.

                research and development funding trends

    Mr. Mollohan. Okay, I think that's a good--let me ask you, 
you said your concerns about the percentage of funding, 
translate that into literal dollars if you will? You're 
concerned about the percentage trend. What does that look like 
in terms of actual dollars? Do you know in actual----
    Dr. Colwell. Well, in the----
    Dr. Kelly. It would be probably, it would be looking in 
terms of total basic research of about $60 billion.
    Mr. Mollohan. Looking at it when?
    Dr. Kelly. In 1997, 1998.
    Mr. Mollohan. What's your baseline?
    Dr. Kelly. The baseline----
    Mr. Mollohan. Give me a baseline and then tell me what 
we're spending now?
    Dr. Kelly. The $200 billion of total research and 30 
percent of that, $200 billion of----
    Mr. Mollohan. When?
    Dr. Kelly. 1998.
    Mr. Mollohan. You're saying that a few years ago in your 
testimony, the Federal Government was--or 30 years ago I think 
you said.
    Dr. Kelly. Yes.
    Mr. Mollohan. It was 60 percent. So what baseline are you 
using? Where's the 60 percent? What date?
    Dr. Kelly. That would be 1968.
    Mr. Mollohan. Okay. And today it's 30 percent?
    Dr. Kelly. Thirty percent, correct.
    Mr. Mollohan. What is that in nominal dollars?
    Dr. Kelly. Today, it would be about $60 billion out of the 
$200 billion. And, of course, there's the whole spectrum of 
research, as Dr. Colwell was talking about, all the way from 
the most fundamental to the most applied. And the part that is 
the most fundamental, the NSF component, which is $4 billion. 
And so we're really investing $4 billion in fundamental 
research on a $8.5 trillion economy. And it's a very, very 
small investment.
    As you have heard already, not only does that--when we have 
Nobel Prizes each year, we have a luncheon back at NSF where 
most of the Nobel Prize winners come back because that's where 
they have their initial support. That not only drives the 
advances of medicine and the other advances, it is the driving 
force, as Mr. Greenspan indicated, in the economy of the 
country.
    Mr. Mollohan. Okay. I want to get down to that. So we have 
some sort of a quantitative handle here on this, I understand 
you're trying to make the point or you probably have made it, 
and I'm trying to understand the point, that we are not 
investing enough. And I think members of the subcommittee 
looked at your budget the last few years and you've been a 
favorite child of the committee.
    Dr. Colwell. Could I put it in another context then?
    Mr. Mollohan. Sure.
    Dr. Colwell. Let us look at the NSF as the fulcrum, $4 
billion spinning out basic research and on this is balanced the 
NIH, the DOE, NASA, other agencies, mission agencies. NIH's 
budget is $15.5 billion roughly. The DOE is about $14 billion. 
NASA is about $13 billion. And they're resting on this fulcrum 
of $4 billion. Obviously, the basic research is not sufficient 
to drive all of this as well as it could.
    Mr. Mollohan. Well, what should it be?
    Dr. Colwell. I would say it should be at the level of the 
mission agencies since there is a disproportionality. It should 
be their driving----
    Mr. Mollohan. Your funding should be higher?
    Dr. Colwell. Yes, sir.
    Mr. Mollohan. Have you requested from OMB higher funding?
    Dr. Colwell. We did request----
    Mr. Mollohan. What was your request of OMB?
    Dr. Colwell. About $4.3 billion.
    Mr. Mollohan. $4.3 billion?
    Dr. Colwell. Yes, and the guidance was $3.9 billion. And 
our request is $3.95 billion.
    Mr. Mollohan. I'm taking up too much time. I do want to get 
to one issue here----
    Dr. Colwell. Yes, sir.

                      ethics in scientific conduct

    Mr. Mollohan [continuing]. Which kind of--this line of 
questioning, how much money we have? And then this question is 
how well we spend it and what are some of the problems we have 
in the scientific community as we decide who is going to use 
this money for research and who's not?
    A recent article in the LA Times raises the interesting and 
troubling issue that I'm getting at. In the words of Cal Tech 
Vice President provost David Goldstein, as some scientists 
compete for research funds, you're in this too so, ``science 
has become not just a intellectual competition but an economic 
competition for scarce resources.'' The article adds that the 
increased competition has resulted in some ``signs of distress 
in the ethical behavior of some scientists.'' In that article, 
Dr. Colwell characterized the situation as ``a very serious 
problem.'' Elaborate on the nature and extent of the problem to 
begin with, if you will, Dr. Colwell?
    Dr. Colwell. We have a very serious problem in this country 
in that we have human resources that we're not fully utilizing 
for the benefit of the country. We have youngsters who----
    Mr. Mollohan. I'm sorry, if I might just interrupt you?
    Dr. Colwell. Yes, sir.
    Mr. Mollohan. Are you speaking to the ethical problems that 
this article raises and that you say is a very serious problem 
in your answer to me right now?
    Dr. Colwell. Yes, I'm leading to that.
    Mr. Mollohan. Okay, thank you. I don't want to interrupt 
you. I just wanted to make sure we're on the----
    Dr. Colwell. Yes, and that is we have youngsters who have 
gone through science and engineering training, coming out with 
their Ph.D.'s. The amount of funding that's available for them 
to carry out their ideas to contribute to the economy is 
extremely limited. And we find that with a greater demand on 
more targeted kind of funding, the tendency is to have 
involvement of industry in the universities, which is 
appropriate except that universities must be very careful to 
remember that their fundamental mission is to educate the next 
generation, generate new ideas, and serve the community. But 
educating the next generation is very critical.
    And in the collaborations of industry and the universities, 
we have to be very, very careful that there not be any kind of 
research that cannot appear in the graduate students' thesis, 
in other words, secret research or research that does not allow 
free and open expression of their ideas. And I think this is 
where we have to be careful. That's the concern.
    Mr. Mollohan. What's the ethical behavior problem? I didn't 
hear you speak to that?
    Dr. Colwell. The problem is having confidential or 
proprietory research whereby students are not able to share 
ideas because of the problems of interest in patenting ideas--
or the rush toward patenting--that then hinders or prevents 
students from interacting. And also I would say the problem of 
the rush to do the research may lead to practices whereby there 
may be perhaps an eagerness to publish too soon. And therefore 
some of the data may not be as thoroughly worked through and 
this is misleading. It borders on the unethical. It isn't 
really unethical but it's a problem.
    Mr. Mollohan. If you were to bullet the problems in this 
area for me, one line bullets, what would you say?
    Dr. Colwell. Maintaining the university as a free and open 
forum and platform for investigation and learning.
    Mr. Mollohan. I don't hear anything unethical about that 
problem. I don't see unethical concerns there.
    Dr. Colwell. Falsification of data.
    Mr. Mollohan. All right. That's a problem.
    Dr. Colwell. Falsification of data. I wouldn't say it's a 
problem, sir. I think there have been cases----
    Mr. Mollohan. I just was actually quoting you.
    Dr. Colwell. Yes.
    Mr. Mollohan. It's a very serious problem you said.
    Dr. Colwell. I should have said ``concern.'' I wouldn't say 
it's so much a problem. The problem is that this is becoming a 
concern and that there are instances which have been blown out 
of proportion. Falsification of data and the problems of 
attributing priority for research and patents.
    Mr. Mollohan. Okay.
    Mr. Walsh. Mr. Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Walsh. We're going to have to keep track of our time. 
We're strict about this, I apologize.

                   information technology initiative

    Mr. Mollohan. Yes, I know. Believe me. I appreciate that. 
And I thank you for letting me go----
    Mr. Walsh. You're welcome. Dr. Colwell, the two 
centerpieces of this year's budget, as you mentioned, were the 
$146 million Information Technology for the 21st Century, IT 
squared.
    Dr. Colwell. Yes, sir.
    Mr. Walsh. And biocomplexity. Given the limited time, I'll 
just focus on the IT initiative. Included as part of the NSF's 
research and related activities account is the computer and 
information science and engineering activity. This activity or 
directorate have been funded in excess of $200 million in each 
of the last seven fiscal years and in excess of $100 million 
for several years before that. Although I wouldn't suggest that 
these appropriations totaling nearly $1.5 billion in this 
decade alone should necessarily solve all of our information 
concerns, it's hard to believe we're as deficient in this area 
as has been suggested by the President's Information Technology 
Advisory Committee and by your budget request. Can you or your 
staff give us some idea of what these previous appropriations 
have been used for as compared to what you expect to do with 
the new funding?
    Dr. Colwell. Mr. Chairman, I think it's important to take, 
if you will, a biological perspective of evolution of how these 
previous investments have evolved into the next stage of 
development. And what is happening is that this field is 
changing so fast. Those of us who used computers in our 
graduate work 25 or 30 years ago literally find the computers 
in the Smithsonian. The IBM 650, which I used as a graduate 
student, is now literally at the Smithsonian. These things are 
changing so rapidly that the investment that was made in high 
performance computing took us from the clumsy, clunky computers 
that we used in the early days, 25 years ago, to the high-speed 
computation that was very important for solving problems in 
astronomy and mathematics and physics. And then we evolved to 
the personal computer and smaller units linked together. And 
that led from the DARPAnet, to the NSFnet, where we linked 
universities together, to spinning it out, as NSF did, to a 
much broader community with the Internet. We now expect that 
within the next three or four years, there will be a billion 
users on the Internet, which is why it's very important to have 
that next generation Internet for faster, speedier computation.
    The partnerships in the advanced computing initiative were 
very critical because it spread out the capability of 
computation throughout the country. Instead of having three 
supercomputer centers, we now have access to centers in every 
State, every State in the country.
    Now what we are coming to is the development of the 
capacity to handle huge databases--weather databases, 
ecological databases, oceanographic databases, medical 
databases on infectious disease. Putting all this together will 
enable us to understand the effect of climate on health, the 
nature of ocean systems and their effect on climate, and so 
forth. In order to be able to inter-collate these databases, to 
mix them together and use them, we need another evolution of 
language, another kind of computation capability.
    So it's as if we started with baby steps 20 or 30 years 
ago, and now we're running ever faster, and we really need the 
investment to keep ahead. Other countries are moving very 
rapidly as well. I visited China in October, Beijing. I was 
very interested when I went out to the City of Qingdao, in the 
eastern most part of China. They were building a new 
university. The first building going up was a software 
institute.

      distinction between it<SUP>2</SUP> and previous investments

    Mr. Walsh. Your description of what you expect to do with 
this first increment of IT money talks about investments in 
research and software systems, scalable information, 
infrastructure, high-end computing; and on the social, economic 
and workforce impacts of information technologies. Have we not 
invested in any of these previous appropriations?
    Dr. Colwell. Again, we're building on the previous 
investments, such as that in knowledge and distributed 
intelligence. This was the beginning of moving computations to 
all areas of science and engineering and technology. With $100 
million invested in basic research and software, in scalability 
going to very large-scale computation capability, in developing 
new architecture, new kinds of computers, this will allow us 
then to manage these databases.
    The $36 million is critical for a terascale computer. That 
means taking us from the capacity we have now to thousandfold 
greater capacity, the linkages of many, many computers to be 
able to do the kind of incredible computation that we couldn't 
do in the past.
    And the $10 million is important for us to understand the 
human computer interface. We are now moving toward computers 
that respond to the voice. Rather than having to sit at the 
keyboard and peck away at the keyboard, we'll be able to talk 
to the computer. This is happening very fast. It's in the kind 
of development stage. But this means that when we go into a 
room, we will be able to turn things on, which will be great. 
We can tell the coffee pot to start up. We can tell the 
microwave to turn on.
    However, it also means that our behavior can be monitored. 
Now what does this mean in terms of personal privacy and so 
forth? These are questions that we should address before 
they're upon us. There are questions of confidentiality of data 
and the problems of knowing that your gene sequence, which is 
in a database and shows that you have a predilection or a 
possibility 20 or 30 years down the road perhaps of a certain 
disease, could be used then to make decisions now, before you 
have even had a chance to live and work those 30 years.
    So there are a lot of fundamental questions that we really 
ought to be looking at, and I feel very strongly that we should 
do this in parallel and not just develop the technology and 
only then begin looking at these questions.
    Mr. Walsh. Let me make a suggestion since we have just 10 
minutes or so each, if you could respond with that in mind, the 
shorter the answer the better.
    Dr. Colwell. Thank you.
    Mr. Walsh. Would be really helpful.
    Dr. Colwell. Yes, you can tell I'm very enthusiastic.
    Mr. Walsh. Well, obviously. And I hate to do that to you. 
I'm told that the subcommittee used to do this for five days.
    Dr. Colwell. Oh, my goodness. I'm not that enthusiastic.
    [Laughter.]

                  genesis of it<SUP>2</SUP> initiative

    Mr. Walsh. That might be, if I could move you with less 
enthusiasm, and us also. And to that point, some people have 
mentioned to us that there is a perception that this proposal, 
this IT proposal, along with others, is somewhat politically 
motivated with an overall budget that was handed down from the 
executive office through OMB. How do you respond to that?
    Dr. Colwell. I would like to respond by saying that I have 
not seen that to be the case. I came on board in July and 
August, and it was very important to me to move information 
technology, biocomplexity, and science and engineering 
education. I came on board with that. I was delighted to find 
out that there was, in fact, an interest in the agencies to 
come together in a major initiative because we all have these 
needs. Dan Goldin was very enthusiastic in my discussions with 
him. He is, in fact, an enthusiast of DNA computing. He sees 
that the neuralnet computing, or whatever the net may be, will 
enable for him to be able to go to the furthermost planets in 
his explorations. In talking with Jim Baker there are 
tremendous needs in oceanographic research, data gathering in 
the observatories that are going to be out in the oceans.
    Well, let me just compress it in response to your asking me 
to be brief. We have worked together over the last three or 
four months, all the agencies, developing the directions we 
need to go in. And so we have developed a plan of action for 
the IT with the NSF serving as kind of a coordinating lead.
    Dr. Kelly. Mr. Chairman, the board is 25 members. This is 
as close to a non-partisan group you'll ever come across. We've 
reviewed all of this and I've never heard a political word come 
up.
    Mr. Walsh. Partisanship isn't exactly the point. It's sort 
of the White House makes pronouncements and NSF responds like 
an obedient pup.
    Dr. Kelly. Well, all the stuff that comes through does go 
before board review. And we reviewed it completely and 
thoroughly, whether it's biocomplexity or information 
technology. And this is a group of scientists and social 
scientists, predominantly scientists, who look at it only from 
a scientific vantage point. And these are fairly solid 
investments.
    In terms of this specific area, Moore's Law is that the 
productivity of computer information technology increases by a 
100 percent every 18 months. That's taken place since 1980 when 
a full computer, the size of this room, is now in a micro-
processor. Our projections are that this will continue for 
another 15 years, this level of productivity. That's how fast 
it's changing. This is a critical element that the board has 
reviewed carefully.

                            paci competition

    Mr. Walsh. Two years ago, we went through a pretty 
controversial process establishing two partnership sites for 
advanced computing. That process left a number of institutions 
and individuals with a bad taste in their mouth. There was a 
feeling that there was an agenda, that science peer review 
wasn't as respected perhaps as it should be, and it was a case 
of, to say unscientifically, ``the rich get richer.'' And there 
also seemed to be a disinvestment in the northeast to the 
benefit of the West and other parts of the country. How would 
you care to respond to that?
    Dr. Colwell. We have agreed, and it will be done, that this 
will be an open competition for the establishment of the 
terascale computer. But more than that, I am deeply and firmly 
committed to science and engineering excellence in every part 
of our country, and accessibility to very high-speed computing 
by every scientist no matter where he or she may be.
    And I find that the PACI center concept is very, very 
important. This is a distributed set of nodes throughout the 
country so that participation is for everybody and there is no 
disadvantaged scientific researcher or research team anywhere 
in the country. I'm committed to that, Mr. Chairman.
    Mr. Walsh. Are these PACI centers so important that it's 
safe to assume that these funds will go to those centers?
    Dr. Colwell. I wouldn't say that. It's an open competition.
    Mr. Walsh. It was last time also.
    Dr. Colwell. Well, I would say that whatever the best 
proposal is that comes forward that ensures that everybody has 
access to the computation will be the proposal that we will 
seek.
    Dr. Kelly. Mr. Chairman, I was not part of this. I had just 
joined the board less than two years ago, but did review it 
subsequently. We get lots of complaints in losing competitions. 
I could find nothing wrong with that process.
    Mr. Walsh. Well, there's always going to be complaints when 
people lose competitions. But the fact of the matter is that as 
you quoted Alan Greenspan, this is not only important to 
science, it's important to our economy.
    Dr. Kelly. Yes.
    Dr. Colwell. Absolutely.
    Mr. Walsh. And critical masses are created around these 
centers and other areas of the country lose, there's a brain 
drain from other parts of the country when these things occur. 
And it's sort of a self-fulfilling prophecy as you lose the 
brains, you lose the opportunity and the ability to attract 
these opportunities for basic science. And I would hope that 
you're not creating a situation where you're piling up all the 
critical mass in certain areas really at the detriment to the 
rest of the country and to institutional centers, very 
important centers of learning, like Columbia University, for 
example.
    Dr. Colwell. I agree with you completely. In fact, I 
visited the Engineering Research Center in Mississippi and was 
extraordinarily impressed with the excellence of everything 
from architecture of the building, to the brains in the 
building, to the work that was being done, and to the, as you 
pointed out very accurately, location of companies around the 
Engineering Research Center. It's transformed the community. I 
believe that is what we must do for every part of this country. 
There's no question in my mind, sir.
    Mr. Walsh. Thank you. Mr. Price.
    Mr. Price. Thank you, Mr. Chairman. Dr. Colwell, I want to 
add my welcome to that of my colleagues on this your official 
visit to our subcommittee.
    Dr. Colwell. Thank you.

                 advanced technology education program

    Mr. Price. As I told Dr. Neal Lane last year, the National 
Science Foundation is extraordinarily important to me and my 
district. In the three research triangle counties I represent, 
there have been 350 NSF awards in Fiscal 1998 that total more 
than $44 million. I don't imagine there are too many 
congressional districts in the country that participate as 
fully in your programs. Indeed, only 15 States have more awards 
than do our three counties. In fact, we're right behind the 
entire State of Wisconsin, which comes in at 353 awards. So we 
know how important your work is.
    I'm supposed to be at three hearings right now. So with the 
indulgence of the chairman----
    Dr. Colwell. I appreciate your being here.
    Mr. Price [continuing]. I want to ask you three lines of 
questions as quickly as possibly and some of it we'll have to 
save for the printed record.
    The first question, though, concerns the Advanced 
Technology Education program. That's the main vehicle for NSF 
to work with the community colleges across the country. In 
1991, I sponsored that legislation based on an idea from Doug 
Walgren, a former member from Pennsylvania, which created the 
ATE effort. And with the help of many others, including my 
colleague, Ms. Kaptur, who was a cosponsor of that legislation, 
the ATE program was authorized in October of 1992 and has been 
funded annually for the last six years. And I think it has 
begun to make a difference in the quality and the innovation we 
see in curricula and teaching methods in community colleges 
across the country at this critical level of advanced technical 
education.
    Now I'm a member of both the budget and the appropriations 
committees, but I confess to some confusion about the Fiscal 
Year 2000 budget request for ATE. Maybe you can help clarify 
the situation. In Fiscal 1998, ATE was funded at $31.1 million. 
Last year, the President recommended an increase of $2.3 
million for a total of $33.4 million. I supported this 
increase. Both the House and the Senate Appropriations 
Committees supported this level of funding. So you can imagine 
my surprise when I looked at the Fiscal Year 2000 budget 
request and saw that ATE was to be maintained at $31.1 million.
    Now can you explain to me how a $2 million increase 
disappeared in a program that both Houses of Congress clearly 
support in an agency that enjoyed a 9 percent increase in the 
previous year?
    Let me just say that I think this year I hope you'll fully 
fund ATE at $33.4 million. And for an agency that received a 
5.5 percent overall increase this year, I believe you should 
have requested at least $33.4 million for Fiscal Year 2000.
    Dr. Colwell. Let me state, first of all, that this program 
is an excellent program. It's a very important one because it 
increases the number of well-trained technicians to meet the 
needs of the workplace in the 21st century. And there's been a 
shortage certainly in many States; the road block to 
advancement has been lack of high-tech folks.
    I would like to ask Dr. Williams, who is here, the 
assistant director for Education and Human Resources, to assist 
in this because I've just been on board six months. I know this 
program is successful and doing well and I would like him to 
amplify it.
    Mr. Walsh. Could you have him stand and state his name?
    Dr. Colwell. Please stand.
    Mr. Walsh. Say his name, please?
    Dr. Colwell. Dr. Luther Williams.
    Dr. Williams. Three points I would like to make to 
supplement Dr. Colwell's comments.
    Mr. Walsh. Just put it on the table. That's scientific. 
[Laughter.]
    Dr. Williams. Okay. In that case, I'll start again. One, 
Mr. Price, we appreciate your continuing interest in the 
program and certainly I share Dr. Colwell's comment with 
respect to the significance of it.
    The second point, yes, we had the request for the $2 
million increment last year. We didn't receive it. The FY 1999 
budget didn't increase as a result.

                 advanced technology education program

    Mr. Price. Well, you didn't receive it from where?
    Dr. Williams. It was not appropriated in the Fiscal Year 
1999 budget.
    Mr. Price. So you're saying the level in the Fiscal Year 
1999 budget was what?
    Dr. Williams. 31.
    Mr. Price. 31.
    Dr. Williams. 31.2.
    Mr. Price. Well, we'll need to look at that. I can't find 
it in the appropriations bills where the President's request 
was reduced to that amount. The President had requested a $2.3 
million increase.
    Dr. Williams. Right.
    Mr. Price. And you're saying that was explicitly not 
granted?
    Dr. Williams. Right. We got increases. We can identify the 
increases we received. But, nonetheless, for 2000, while it's 
true that we're sustaining it at the same level, I would like 
to point out that there are two other components of the budget 
that will benefit the ATE program. You are aware of the fact 
that we received under what is called the H-1(b) Visa funds to 
support low-income students via scholarships at the associate 
degree level, undergraduate degree level, and the graduate 
degree level. For Fiscal Year 2000, that amount will be about 
$25 million.

                        h-1B scholarship support

    Mr. Price. Right.
    Dr. Williams. To support scholarships.
    Mr. Price. And community colleges will be----
    Dr. Williams. You would expect that they would be the 
principal participants because the scholarships are restricted 
to $2,500 per student. The program supports not only associate 
degrees in, mathematics, computer science, and engineering, but 
also in technology. So you can combine the two.
    Other funds from the H-1 Visa fund will benefit the ATE 
program. We are tasked with employing $4 million of that fund 
to expand systemic initiatives. That will be the ATE program 
added to the K-12 base. Thus, the total expenditures by the 
Foundation are going to exceed what you're seeing in the ATE 
line.
    Mr. Price. Good. That was a line of questioning I had hoped 
to pursue. And I'll just ask you if you will to furnish for the 
record an explicit accounting of the community college 
participation in both of those aspects of the H-1B program.
    Dr. Colwell. We'll do that, sir.
    Mr. Price. And we clearly need to get some clarity on the 
appropriated amount for the current fiscal year and how that 
relates to your year 2000 request.
    [The information follows:]

                   H-1B Nonimmigrant Petitioner Fees

    We expect to receive $27 million in FY 1999 and $33 million in FY 
2000 from the H-1B nonimmigrant petitioner account. The Computer 
Science, Engineering, and Mathematics (CSEM) Scholarship activity is 
expected to be funded at $21 million in FY 1999 and $25 million in FY 
2000 with the remaining funds supporting systemic reform activities and 
students enrolled in year-round academic enrichment courses in science, 
math and engineering. NSF expects to issue a program announcement for 
the CSEM Scholarship activity in May, with proposals due in September. 
Awards will be made in January 2000. We anticipate that approximately 
40 percent of the funding will go to associate degree granting 
institutions. When the results of the competition are known we will be 
happy to provide the Committee with an account.
    The Systemic Reform Activities will supplement existing systemic 
reform activities in the Educational System Reform Subactivity. We will 
be happy to provide the Committee with an account of the supplemental 
funding when it is available.

    Dr. Colwell. Thank you. We'll do that.

                     RESEARCH INSTRUMENTATION NEEDS

    Mr. Price. All right. I know that the National Science 
Foundation is no longer in the bricks and mortar business. I'm 
also aware though that you still have an important role in 
supporting research instrumentation. Here, again, specifically 
with respect to the community colleges, and let me also add 
here the Historically Black Colleges and Universities, I wonder 
if you could give us an accounting perhaps today orally, but 
also for the record, of the assessment you make of the 
instrumentation needs of community colleges? I expect the ATE 
program has led to some exposure and some conclusions in this 
regard? And also of the Historically Black Colleges and 
Universities? And the extent you feel like the current budget 
enables you to address those needs? I'm well aware, of course, 
that what we're doing falls far short of the need there, but 
what is your assessment of how far you're going to be able to 
go in addressing these needs with your current budget and what 
more might we be able to anticipate?
    Dr. Colwell. Thank you for the opportunity for me to say 
something which I hope is not too controversial. I do think the 
infrastructure for our colleges and universities, and 
especially community colleges and smaller undergraduate 
colleges, the Historically Black Colleges, is very much like 
our road system. We have got to provide the instrumentation for 
these kids to be able to work in the 21st Century. We find that 
industries are now running programs where they have the elegant 
equipment and apparatus to re-train graduates simply because we 
don't have the instrumentation for them to be trained properly. 
When we talk about the advancements in computational sciences, 
there are equally exciting advances in physics, and chemistry, 
and mathematics. Kids need to learn how to use gas 
chromatographs and their successor instruments. They need to 
understand how to use successors to the PH meter that I used 30 
years ago, which is again probably in the Smithsonian compared 
to the kinds of electronic devices that are used routinely in 
industry laboratories.
    So I would say that we are badly, seriously under-funding 
instrumentation in our universities, colleges, and community 
colleges, and high schools as well.
    I would say that we're not able to address this need. It's 
probably in the billion dollar range. But what we try to do is 
target where we can influence the maximum number of students 
and we partner with science and engineering technology centers 
and with the Historically Black and under-served minority 
institutions. We partner with community colleges. We are 
bringing undergraduate education into a close liaison with 
undergraduate research so that we bring research and teaching 
as close together as possible to get a laboratory experience. 
So we're trying to do as much as we can, but remember we're 
still talking about that $4 billion fulcrum and we have mission 
agencies above $10 billion. The under-investment is very 
serious.

                              DATA ACCESS

    Mr. Price. My time has expired. I would like to ask that 
you submit for the record any fuller documentation you have of 
the extent of the need, particularly with respect to these 
institutions I mentioned?
    [The information follows:]

   Instrumentation Needs of Community Colleges and Minority Serving 
                              Institutions

    Access to modern instrumentation is critical in supporting a high 
quality undergraduate instructional program which allows students to do 
science and not simply read about how it's done. In 1992, an NSF survey 
asked the heads of 300 science departments and facilities in U.S. 
research colleges and universities for their single highest priority 
need for instrumentation. Computers, spectrometers, and microscopes 
were the most frequently cited needs, and the 300 items requested cost 
a total of more than $1.2 billion. The growing need for instruments 
extends far beyond these research-intensive institutions into the 
teaching-intensive four-year colleges, community colleges, and K-12 
school systems.
    Each year NSF receives in excess of 30,000 competitive proposals 
for support of research and education activities. Many of these 
proposals include requests for instrumentation. For over a decade, NSF 
has annually invested approximately 10 percent of its research and 
education funds in instrument development and acquisition. In FY 1998, 
this investment totaled nearly $200 million, of this approximately $80 
million supported instrumentation in community colleges and minority 
serving institutions.
    In addition to supporting instrumentation on individual research 
and education grants, the Foundation has a number of more focused 
efforts to enhance instrumentation. In FY 1999, for instance, support 
for instrumentation will be provided through the Course, Curriculum and 
Laboratory Improvement program, which builds on the former 
Instrumentation and Laboratory Improvement program. The Advanced 
Technological Education (ATE) program, initiated in 1995, provides 
instructional equipment to technician education programs, principally 
in two-year colleges. On average, only around 10% (or less than 
$50,000) of the average project budget was devoted to equipment costs 
within the 47 new ATE awards made in FY 1998. Similar to the ATE 
program, the HBCU Program, initiated in 1998, supports instructional 
equipment within the context of curriculum and faculty development 
activities.
    Despite efforts to address the issue, there are constrained 
resources to address the identified needs in instrumentation. The pace 
of technological change implies a continuing need for revitalization of 
laboratories and instrumentation. A recent NSF workshop, Information 
Technology: Its Impact on Undergraduate Education in Science, 
Mathematics, Engineering, and Technology (NSF 98-82), in making the 
case that both faculty and students will require high-speed 
connectivity to access educational innovations and broader information 
essential to a modern education, gives an indication of the cost 
challenges posed by establishing and maintaining an information 
technology infrastructure for education.
    In summary, the need for instrumentation has been and continues to 
be great. The exact costs of addressing all the instrumentation needs 
for performing research is billions of collars. Efforts for addressing 
the need exist, but additional investment is required.

    Dr. Colwell. I would be delighted to do that. Mr. Price 
and, Mr. Chairman, I would also like to ask that the NSF and 
the National Science Board submit for the record any comments 
that they have on this circular A-110 issue. It was brought up 
earlier very briefly. I know you have letters regarding your 
concern about the A-110 problem.
    Dr. Colwell. Yes, sir.
    Mr. Price. Both from the NSF and the National Science 
Board. I would like to have those put in the record if we 
might.
    Mr. Frelinghuysen. If there be no objection, consider it 
done.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Price. And ask you to elaborate on that as you think 
might be appropriate because that issue surely is going to be 
before us this year.
    Dr. Colwell. It's a very serious issue.
    Mr. Price. Right. Thank you, Mr. Chairman.
    Mr. Frelinghuysen [presiding]. Thank you, Mr. Price. 
Director Colwell, good morning.
    Dr. Colwell. Good morning.
    Mr. Frelinghuysen. Mr. Walsh is out. I'm going to take this 
opportunity to ask a few questions. First of all, wherever I 
go, I've always got to ask whether any institution has a 
relationship with the National Science Foundation. And I'm 
pleasantly surprised to find out how many do and the diversity 
of your involvement in so many institutions. And I know you 
keep referring to the fact that you've worked with a number of 
pieces of equipment that are now in the Smithsonian. That has 
nothing to do with your age.
    Dr. Colwell. That's right. Thank you.

                          COMPUTER TIME ACCESS

    Mr. Frelinghuysen. One thing that we're counting on is that 
you continue to have the same high level of enthusiasm as your 
predecessor, Dr. Neal Lane. And I think your physical presence 
out in all of our States and all of our communities is 
extremely important. And what you need to do even better than 
you're doing is to relate the National Science Foundation's 
work to the average citizen. It is allfine and good to work on 
behalf of so many wonderful academic institutions, but as best you can, 
you need to relate your work, and this is just one person's opinion, to 
how it involves everybody's life every day.
    From time to time, I read in the newspaper that civilian 
scientists are facing increased competition for computer time 
from Government scientists, in particular from the Department 
of Defense. Where do we stand on that issue? Do you have 
anything in this fiscal year's budget?
    Dr. Colwell. Yes.
    Mr. Frelinghuysen. Last year, I believe we gave you what 
$74 million to address this issue? And is this computer time 
shortage a result of NSF's decision to close the super-computer 
facility?
    Dr. Colwell. The request for the terascale, $36 million, is 
actually critical and we fought very hard for that because we 
believe that civilian scientists, if you will, must have access 
to the very high-scale end computing. To put it in the layman's 
terms, if you're going to be a concert pianist, you have to 
have a piano. So we felt very strongly that we must have this 
very high-scale computer available.
    More than that, we believe that the Partnership in Advanced 
Computing, the PACI, is very important. And, furthermore, the 
next generation Internet to bring it to all States and all 
scientists. The $25 million is not part of the IT initiative 
but still is in our budget to do that expansion to all of the 
States to make sure that all scientists have access to the kind 
of computing power that addresses their computing needs.
    Mr. Frelinghuysen. Does this competition still exist?
    Dr. Colwell. Yes.
    Mr. Frelinghuysen. And to what extent are the additional 
monies addressing it?
    Dr. Colwell. The $36 million would be to expand the high-
speed computing. Joe, would you like to add to that?
    Dr. Bordogna. Well, the high-end computing infrastructure, 
which replaced the supercomputer centers, was done and 
implemented, and the $36 million in the IT initiative is a 
whole new competition, not just for a standard machine but for 
a computing system of some kind to push back the frontier. And 
that will be totally open to full competition.

                   BIOCOMPLEXITY AND THE ENVIRONMENT

    Mr. Frelinghuysen. The chairman mentioned the biocomplexity 
and the environment programs. You're proposing a $70 million 
increase. Could you very briefly discuss your vision?
    Dr. Colwell. Yes, sir.
    Mr. Frelinghuysen. As a non-regulatory provider?
    Dr. Colwell. Yes, sir.
    Mr. Frelinghuysen. Of this type of information?
    Dr. Colwell. It is absolutely critical that we bring strong 
research as an underpinning to any decisions that are made. 
And, furthermore, within the environmental sciences, we have 
reached a point where we can incorporate the molecular, 
molecular biology, genomics, community structure, ecosystem 
dynamics, and biosphere. Looking at the entire biosphere of the 
planet, we're in a position now, through the kinds of data 
we've been gathering, to put this together and to be able to 
derive, if you will, mathematical formulas to better understand 
what, in fact, is a sustainable ecosystem. So some of the 
questions about the need for biodiversity, the danger of losing 
species, we would like to put into a scientific context to be 
able to show that, in a fairly complex and diverse ecosystem, 
there are organism interactions with the environment that are 
key in sustaining the health of the environment.
    Mr. Frelinghuysen. Is it because the NSF has the 
disciplinary structure more than the other entities that are 
out there collecting?
    Dr. Colwell. Absolutely. The National Science Foundation 
covers mathematics, physics, chemistry, biology, atmospheric 
sciences, et cetera. And we bring all that together. We are the 
only agency----
    Mr. Frelinghuysen. Will all the environmental funding go to 
the traditional directorates or are you considering new 
structures?
    Dr. Colwell. We're considering new structures. I'm not 
ready yet to outline them in detail because we're in the midst 
of discussing how we can invest in and handle interdisciplinary 
proposals.

                 PARTNERSHIPS IN ENVIRONMENTAL RESEARCH

    Mr. Frelinghuysen. I hope you'll keep the committee posted. 
And, lastly, to what extent, a brief comment, are you working 
with the EPA and other agencies on all plans for an expanded 
role in science related to the environment?
    Dr. Colwell. We have a coopertive agreement already with 
the Environmental Protection Agency and we work together, if 
you will, sort of infusing the peer review system that NSF has 
so successfully used into the EPA's processes as well. But we 
have combined on targeting specific problems and then using 
science to address them.
    Mr. Frelinghuysen. For the committee's information, would 
you provide some specifics?
    Dr. Colwell. Yes, sir.
    Mr. Frelinghuysen. Relative to that relationship?
    Dr. Colwell. I would be delighted to, sir.
    [The information follows:]

                          Partnership With EPA

    The NSF and EPA have a long history of collaborating on topics of 
mutual interest. These collaborations have moved beyond environmental 
science to include the biological and engineering sciences as well. 
Most recently, NSF and EPA collaborated to examine environmental 
processes in the coastal regions of the Great Lakes.
    At the direction of Congress, NSF has been working with EPA over 
the last several years to assist them in developing a peer review 
system. Below are some examples of programs that we have jointly 
issued:
             epa/nsf partnership for environmental research
    The Environmental Protection Agency (EPA) and the National Science 
Foundation (NSF) continue to support an extramural grants program in 
fundamental environmental research in Fiscal Year 1999. This EPA/NSF 
competition has been developed based on a Memorandum of Understanding 
between the agencies which establishes a partnership emphasizing the 
support and merit review of fundamental environmental research. This is 
the fifth year of the joint special awards competition. Information on 
awards made in the FY 1995 through 1998 competitions may be found on 
the Internet through: http://www.nsf.gov/bio/progdes/nsf9914 or http://
www.epa.gov/NCERQA. The four research areas targeted this year are: 
Water and Watersheds; Technology for a Sustainable Environment; 
Decision-making and Valuation for Environmental Policy; and 
Environmental Statistics.
            ecology and oceanography of harmful algal blooms
    The Environmental Protection Agency (EPA), the NSF, and the 
National Oceanic and Atmospheric Administration (NOAA) continue to 
combine each agency's unique interests and missions into a coordinated 
research program on Harmful Algal Blooms (HABs). The interagency 
Ecology and Oceanography of Harmful Algal Blooms (ECOHAB) program 
represents a major response to address the need for long-term, large-
scale, interdisciplinary research on the environmental processes that 
facilitate and regulate HABs in the coastal oceans. The ECOHAB program 
began in FY 1997 and is to continue until FY 2001. Although, NOAA was 
the lead agency, it was NSF's peer review system that was used in 
proposal review and the selection process.

    Mr. Frelinghuysen. Thank you. Mrs. Carrie Meek.
    Mrs. Meek. Thank you, Mr. Chairman. Welcome.
    Dr. Colwell. Thank you.
    Mrs. Meek. I have quite a few comments and our time is 
limited.
    Dr. Colwell. Yes, ma'am.
    Mrs. Meek. And I will submit the rest of them for the 
record and appreciate wherever I've requested some data if you 
would supply it. I would appreciate it.
    Dr. Colwell. I would be very happy to do that.

                minority and graduate education programs

    Mrs. Meek. Thank you. I'm sure you realize that the 
National Science Foundation over the years has placed quite a 
bit of emphasis on minority education and on programs. And I 
would think the prime mover in that regard was Lou Stokes. Over 
the years, this was sort of a legacy that he left us to be sure 
to keep our focus on that and I'm very much interested in it. I 
have a few questions regarding that. A few sort of like 
reflections and then some questions. And I'll do that.
    First of all, I consider your education and human resources 
mission as one of the most important ones which you have listed 
here. But the overall budget increases, 5.8 percent, but your 
budget for education and human resources is only half as much, 
a 2.4 percent increase not counting your H-1(b) for non-
immigrant petition of fees. In your answers to me later, could 
you explain why there was such a tiny increase in this regard?
    Dr. Colwell. Yes, ma'am.
    Mrs. Meek. My second question has to do with just to make a 
general point here is that the big loser in all the programs 
you have in your budget is graduate education programs. It 
looks that way. That's what you're going to cut by 4.5 percent, 
which is a very huge cut in graduate education programs.
    You cite in your budget here the Louis Stokes Alliance 
minority participation as being a very successful project. And 
throughout you mention quite a few programs which lead to 
minority education. Yet, in your budget, just one instance in 
your explanations of your budget explaining the budget here, 
you have a diversity continuing and I quote, and you quote 
``Losing ground, science and engineering, graduate education of 
black and Hispanic Americans. In 1998, the American Association 
for the Advancement of Science reported that continued decline 
in minority graduate science, mathematics, and engineering 
enrollment could have a major impact on workforce diversity in 
the 21st century.'' Yet, your programs have frozen those items 
in terms of the increase. You've asked for very little 
increase.
    And I would like for you and Dr. Williams to respond to 
this because each year I've asked him these questions, and he's 
back again this year. [Laughter.]
    I just want to know how you have such a strong emphasis, 
yet your budget does not reflect that?
    Dr. Colwell. Let me explain that because, in fact, I have a 
commitment to the workforce of the 21st century being a truly 
diverse workforce. I have said over and over again you cannot 
have a pyramid with the knowledge-rich at the top and the 
knowledge-bereft, a large base, at the bottom. It doesn't work. 
In the 21st century, we have to empower all citizens through 
knowledge.
    Now let me explain what appears to be a small increase 
which, in fact, is larger because we have embedded in the other 
programs outreach to minority institutions in education through 
the science and technology centers, and through the engineering 
research centers, and through the other programs. We are 
building into those programs a component and a natural 
interaction with minority institutions, with Native American 
institutions, and substantially Hispanic institutions. So we 
are making it part of our overall effort rather than separating 
out the programs. So there really is an increase and I'll have 
Luther give you more detail about it.
    Now with respect to the graduate fellowships, in fact what 
we have done is develop a new graduate education program, which 
I think is very important to address especially the serious 
problems in the larger cities in K-12 education. But it appears 
under the line item of undergraduate colleges and universities. 
And this program will provide graduate students with 
fellowships and tuition and stipends. But the proposal has to 
come in jointly from the school system and the university. The 
graduate students will do their teaching, not in the 
undergraduate laboratory at the university, but in the local 
schools, the elementary and middle and high schools. So we're 
building a partnership with the university and the school 
system. And believe think this is very important because, as 
you think about it, the large universities are in the large 
cities and that's where serious problems are evident.
    Mrs. Meek. If I may intervene?
    Dr. Colwell. Yes?

                      minority education programs

    Mrs. Meek. I'm a graduate of higher education and I taught 
in colleges almost all my life before I came to this rarefied 
experience. But I do know how we get tied up in this quagmire 
of various programs being integrated and correlated. And many 
times they're correlated out of the system. And I noticed that 
you put all your monies in that area that you sort of folded 
them in into the one category here. That sort of bothers me, 
Doctor, in that the minority education programs can easily lose 
their identity when they're folded in that way and there isn't 
an emphasis and the focus on it which you've shown in the past 
with great success, with some success, not as much as a lot of 
us would like to see. But you did work toward that end. I know 
that that was a decision that you made, you and your 
colleagues. But I would like to push forward to see that you 
sort of show what you're doing in those areas because unless 
you grow your own, you won't have any.
    Dr. Colwell. Absolutely right. And this is where my 
colleagues back there may not like what I'm about to say, but I 
happen to think that GPRA has value because it allows us to set 
our goals. And those goals include the achievements in reaching 
out to the under-served components of our population. So we 
have them embedded in our particular achievements so that these 
are not lost. The programs are not just melted in and then 
lost, as you fear, but, in fact, we provide accountability. And 
I think that is critical.
    Luther, I would like to ask you, Dr. Williams, if you would 
like to amplify this?
    Dr. Williams. Yes. Again, I will attempt to extend the 
comments made by Dr. Colwell and try to make three or four 
points. First of all, as she indicated, an awful lot of the 
address to under-representation in science, mathematics, 
engineering, and technology is represented in other programs. 
That was not true five years ago, and it is the only strategy 
that is entirely appropriate.
    The second point I want to make is that if you look at 
NSF's portfolio 10 years ago, you would find it's K to 12 
operation in math and science and then you would find small 
programs targeted on minorities. We made the transition from 
that kind of operation to try and address the whole system, 
through the systemic efforts. So it doesn't matter whether the 
program is in El Paso, Miami, urban school districts or in the 
Delta of the Mississippi, Arkansas, or Louisiana area. The idea 
is to deal with all of the students. And that is working quite 
well. I'm not arguing that the performance of the students is 
what we desire, I'm talking about the strategy for improving 
everyone's capacity to produce, everyone's opportunity to do 
serious math and science learning in their schools.
    Let me get to the issue with respect to higher education. 
The first point, I certainly share in your observations about 
your former colleague, Mr. Stokes, we operated primarily an 
undergraduate program, the AMPs Program which is now named for 
him. And it has been very successful. It is a model. But that 
is not the total result. We don't only want to produce 
minorities at the undergraduate degree level in science and 
engineering--we desire to produce scientists and engineers so 
they can participate in the science enterprise.
    In Fiscal 1998, we received two important programs to 
address exactly what the AAAS Report you cited speaks to. Very 
quickly, we received a program of about $6 million focused on 
infrastructure needs that Mr. Price spoke about in HBCUs alone. 
We have made the first awards. That activity is being sustained 
through 1999 and we have the opportunity to make additional 
awards dealing with HBCU infrastructure, we expect to make 
eight or nine awards this fiscal year.
    In addition, in the same fiscal year for the first time, we 
received funds to start to deal with graduate education that 
would parallel the undergraduate programs. That started last 
year. With $5 million, we made eight awards, including one to 
the University of Florida. We received in 1999, an increment of 
$7.5 million.
    So what I'm trying to convey is as far as the graduate 
arena is concerned, in two fiscal years we went from zero to a 
$12.5 million operation. Yes, it doesn't increase in 2000, but 
I very positively regard the transition, what we have been able 
to accomplish over two fiscal years.
    The reference to the continuum simply acknowledges the fact 
that even though these will remain separate programs, if we 
truly expect to produce Ph.D.-level scientists and engineers, 
we have to operate these programs so there's some alignment 
between what happens in the undergraduate sector and what 
happens in the graduate sector. So it's operated as a continuum 
and we begin to produce the kind of products we desire.
    Mrs. Meek. I think that's a very good answer, but if 
themoney isn't there, how will the continuum work? I want to stop now 
because my time is up. But those are some of the problems I have with 
the continuum in that you throw us the money. I would like to see a 
little more sensitivity in that regard, try to bridge the gap between 
theory and practice. That's all I'm talking about.
    Dr. Colwell. Thank you, yes.
    Mrs. Meek. Thank you, Mr. Chairman.

                      ENGINEERING RESEARCH CENTER

    Mr. Walsh [presiding]. Okay, thank you very much. Mr. 
Wicker?
    Mr. Wicker. Dr. Colwell, I want to say this has been a very 
interesting hearing, and I want to join my colleagues in saying 
how glad we are to have you here.
    You mentioned visiting a center in Mississippi?
    Dr. Colwell. Yes.
    Mr. Wicker. And my ears perked up. [Laughter.]
    Where was that center and what is the connection between 
NSF and the----
    Dr. Colwell. It's the Engineering Research Center. And it's 
at the University in Columbia. I visited there----
    Mr. Wicker. At Mississippi State?
    Dr. Colwell. Mississippi State, Mississippi State 
University. I visited there in, January. And I was really very 
impressed with the work being done. It's focused on electrical 
engineering. I was very impressed with the fact that there are 
a large number of companies that had located there. And the 
headquarters of the largest electrical connector company, an 
international company, was located there. And that the 
scientists were extraordinarily gifted. It showed the 
investment was a very important one in that region.

                                 EPSCOR

    Mr. Wicker. Well, that segues into a question that I had 
about EPSCOR.
    Dr. Colwell. Yes, sir?
    Mr. Wicker. And I wanted to ask you how you think the 
EPSCOR program is working to stimulate competitive research in 
States that may be have not gotten a lot of research dollars in 
the past? The fact is that my State is one of 18 which all 
together receive less than 8 percent of NSF's funding each 
year. And I realize that this should be competitive, and we 
should go where the best science can be performed, and, yet, I 
would like to think we could work toward plusing-up that 
percentage. So would you comment on that?
    Dr. Colwell. I'm very happy to do so because this is one of 
my goals as Director of the National Science Foundation and 
that is to bring to every part of the country strength in 
science, and engineering, and technology. It's the engine that 
drives the economy. It is what brings us our standard of living 
and every part of the country needs to share in it.
    We're looking very seriously now at the next stage because 
EPSCOR is no longer experimental, it's very successful. It's 
done very, very well. I participated in some of the early 
panels. In that case, it was Puerto Rico. And recently I 
returned to evaluate the progress and it's been significant and 
substantial. So there's no question that the investments that 
we've made have been useful, successful, and well applied.
    So what we need to do now is to ensure, let's say through 
the second generation Internet, that we continue. There are 
some 33 connections in the EPSCOR States alone in the PACI 
Internet effort. We need to make sure that we extend even 
further, let's say go the extra mile, into a community to make 
sure the connections are made. We need to look at how to go to 
that middle stage where we have taken States that have not been 
successful to the point where they are now being successful. 
They are not yet at the stage to be fully competitive. We don't 
want to just set them free. But we need to develop another 
stage program that will carry them the next qualitative leap 
up.
    Mr. Wicker. Do you have goals established in that regard?
    Dr. Colwell. We are working these out. I don't have any to 
immediately share with you. But I would say that it's clear 
that the EPSCOR institutions are taking a leadership role in 
the next generation Internet. It's clear that the research 
proposals are being successful. It's clear that this investment 
has been positive and I'm extremely supportive. So there are 
not numbers that I can give you at this time, though I think 
maybe Joe, if you want to?
    Dr. Bordogna. Well, the issue right now is to capitalize on 
these wonderful things that are happening. For example, 
Mississippi State, the Engineering Research Center, was 
selected in an open competition across the whole country as a 
result of previous EPSCOR investment that lifted the capacity 
of those folks there to compete. And we've been very successful 
with that.
    Now we talk today about having local areas where companies 
can develop, because innovation happens locally, Silicon Valley 
and so on. And we would like to couple this EPSCOR experience 
with some others, for example, the SBIR grants. There are many 
kinds of things we can do and we're working very closely with 
the States. Can we find a way to put all this together now and 
focus on helping innovation happen with this experience we 
have? We haven't fleshed these out yet. But the EPSCOR program 
is key to our experiential base to do these new things.

                    PARTNERSHIPS WITH OTHER AGENCIES

    Mr. Wicker. Well, let me just quickly ask a couple of other 
questions. We had a great deal of testimony this morning about 
health and medicine. Also, you specifically discussed education 
in your testimony and you answered questions about that. What 
is the level of coordination between NSF and NIH, the National 
Institutes of Health?
    Dr. Colwell. Yes.
    Mr. Wicker. And between NSF and the Department of 
Education? And is there bifurcation there? Is that a problem at 
all?
    Dr. Colwell. To answer the last question first, I don't 
think there's a problem with duplication. There's too much to 
be done and the partnerships are very important.
    Let me take this opportunity to share with you what I think 
is an important direction we need to take and that's to focus 
on learning. We have been focusing very heavily on teaching, 
but we have not spent a lot of research effort or pedagogical 
effort on the student. And our partnership with NIH, which 
we're now developing, is designed to bring the Institute for 
Child Development, the work being done in brain research, 
pharmacological aspects of learning and function, together with 
pedagogical expertise and the successes that we've had in 
communities through the NSF programs. We will bring these 
together so that we better understand on a scientific basis how 
students perform.
    I suspect there's a Gaussian distribution, a kind of a 
normal distribution, of kinds of learning, modalities' and that 
we've been focusing in our teaching on just a thin slice, with 
a lot of different ways of learning not being addressed in the 
kinds of teaching that we're doing.
    So we already have programs with NIH in areas like 
bioengineering, but we will be expanding our interactions with 
NIH in learning. For example, just in ways of learning how to 
read, there's a lot of controversy. But by doing basic 
research, we may find that children do learn to read different 
ways and that there's not one method that is absolutely the 
best. The methods may be quite similar, but address different 
kinds of learning.
    We have partnerships with the Department of Education and 
these programs are being expanded. We believe this is important 
to do. And we're very keen on bringing science and math and 
engineering content into the classrooms because it is critical 
for children to be mathematically comfortable to be able to 
live in the 21st Century. Math and science are very important. 
We need to ensure that, in our universities, courses for the 
non-science majors are improved. And this brings us also to the 
need for outreach and bringing museums and aquaria and science 
centers together with our school systems so that we have a 
continuum, if you will, of learning experiences that allows us 
to use all kinds of approaches to improve science education.
    Sorry to be so long winded, but I'm very interested in 
this.

                       SCIENCE AND MATH EDUCATION

    Mr. Wicker. Quickly, you mentioned that our science and 
math education, we have some bad news.
    Dr. Colwell. Yes.
    Mr. Wicker. In the way that we compare to other Nations, 
and by the 12th grade, our students are near the bottom. When 
it comes to our colleges and universities, actually it's the 
other way around isn't it? Folks from all over the world want 
to come to college in America.
    Dr. Colwell. That's right.
    Mr. Wicker. Now why is that? Why that dichotomy there?
    Dr. Colwell. Well, I'll offer a few comments and I hope 
these won't be interpreted as my saying these are the only 
reasons. But for too long, scientists and engineers have 
assumed that educating K through 12 is someone else's 
responsibility. I believe very strongly that universities, and 
faculty at universities, need to be involved in a partnership 
with school systems because, after all, the next generation of 
scientists and engineers in this country are our children who 
are coming up through the K through 12. And that's why we have 
started this program for graduate education fellowships to 
bring graduate students to teach in the local community schools 
under the tutorial guidance and mentorship of the pedagogical 
expert, the teacher, and bring the content and the excitement 
and the role models into the classrooms. And we are insisting 
that these programs be developed jointly between the school 
system and the university.
    I think we need to invest, in fact I've said it on many 
occasions and I'll say it here, it's not Y2K that's the 
problem, it's K-12. That's where we need to put our emphasis.
    Mr. Wicker. And you think the answer may be that the 
universities need to contribute more to K-12?
    Dr. Colwell. I think that's part of it, and I think part of 
it is that we need to utilize our community resources, museums 
and science centers. We need to incorporate them as part of the 
overall learning experience.
    Dr. Kelly. The Board has been looking into this and has a 
task force on it. In fact, we just reported it out yesterday in 
the TIMSS Report. I guess there are three or four basic 
elements in there. One is science and math education. We need 
national standards in terms of curricula content, that our 
students have a wide variety of math and science subjects that 
they do not explore in depth. In addition, to that one out of 
three children in grammar school moves more than twice in their 
grammar school experience. They go into completely different 
school districts with completely different curricula. It's 
impossible to learn under these circumstances.
    Second, in terms of the high school teachers, elementary 
and high school teachers, one out of every four, only one out 
of every four has been trained in the subject they're teaching 
in science and math. Three out of every four have not.
    We also do not do an adequate job in assessment or 
evaluation and testing. We have to have national curriculum 
standards, not Federal standards, local standards. But we have 
to have national standards in math and science. We've got to 
have teachers trained in those subjects. We've got to have 
assessment on that. And, as Dr. Colwell has indicated, we also 
need a great deal more research on learning.
    But that is critical. We've mentioned before in terms of 
the pipeline issue, we're too heavily dependent on immigrants, 
immigrant scientists in both the universities and in the 
corporate world. We have to do a much better job in terms of 
elementary, secondary education. We have to do a much better 
job in terms of including women and minorities into the 
sciences. We have to fill that gap. But it's got three or four 
basic elements. We really need solid, highly vigorous content 
in math and science. We need teachers who are trained. And we 
need testing at all levels to measure progress.
    Mr. Wicker. Mr. Chairman, I have to let that answer stand 
because my 11 minutes have expired. But I would suggest that 
colleges and universities have to compete for students every 
day. And our public school districts don't have to do that. And 
it just seems to me that that is a factor also in the quality 
of the education, knowing that they have to go out and make a 
case every day for the student to come to that university. We 
don't do that at the public school level. I would just leave 
that.
    Mr. Walsh. Leave the comment and the answer stands. Thank 
you, Roger. Mr. Cramer?

                           regional outreach

    Mr. Cramer. Thank you very much, Mr. Chairman. I want to 
follow my low-key, somewhat long winded neighbor from 
Mississippi. [Laughter.]
    I'm a new member of the committee. And I welcome you as 
well to the committee, but I'm new to NSF and NSF's issues. I 
was on the Science Committee before and I had a good healthy 
relationship with NSF, and I respect and appreciate where you 
are and wish we could help you more. But I'm also an EPSCOR 
State there in Alabama. My region considers itself a high-tech 
there in north Alabama. I thought we were doing well until I 
heard Mr. Price talk about how well they were doing in the 
Research Triangle. [Laughter.]
    And while I admire what they're doing, we have got a long 
way to go I think. But you've been very helpful to me, my 
office, and my district in making sure that we get information 
to our relevant institutions and agencies that could benefit 
from programs under NSF. And speaking and following the line of 
questions about EPSCOR, I think we need to do a better job of 
disbursing our research funds. And that's been something that 
I've scrutinized with you over the years. But you're doing a 
very good job of helping the EPSCOR States, especially with the 
high-speed Internet connections. And I just wondered along the 
lines of Mr. Wicker was asking, how can you help the EPSCOR 
States with the applications rather than with the high-speed 
Internet connections? And do you have plans or are you doing 
that already?
    Dr. Colwell. Well, we do have plans and we do feel that 
establish Internet connecting is the next stage of being able 
to extend out into the community and to be able to utilize, to 
access the data locally to do the kinds of computations that 
would have required travel or would have simply not been 
available. So these kinds of activities, as well as bringing 
school kids into the Internet for learning purposes, are really 
critical to enhance participation.
    I think you know about our GLOBE program.
    Mr. Cramer. Yes.
    Dr. Colwell. And this is a very exciting program where we 
actually have schoolchildren making measurements. These 
measurements are legitimate and they're added to scientific 
databases. In fact, at a school in Massachusetts, students were 
able to access astronomy data and discovered a new body in the 
comet belt. So we can actually bring learning right into the 
local community.
    Joe, would you like to add to this?
    Dr. Bordogna. I think the good word to use here is 
``outreach'' and being more vigorous and for NSF to go out to 
the States more. One of the issues in EPSCOR was to help people 
learn how to compete. Another issue was to invest some money to 
bring their capacity up higher in the instruments so they could 
compete. Connectivity is another facet of that. It allows them 
to compete with instruments available all over the place. But 
they have to know how to use it. So outreach again, saying to 
the States now, you have the connection, what do you do with 
it? How best to compete with it?
    Mr. Cramer. You're saying you do now and you're building on 
that?
    Dr. Bordogna. We're building on that. I can't emphasize 
enough, we really want to do something special here that 
expands our scope in a very systemic way so that the whole 
country, no matter where the brains come from have the capacity 
to compete.
    Mr. Cramer. I encourage that. Do you have EPSCOR 
researchers serving on advisory committees at NSF?
    Dr. Colwell. We do indeed and we encourage that. In fact, 
as I've gone to make visits, I've asked for a list of names of 
outstanding people and their CVs so that we can be sure to have 
these to select individuals who would not otherwise come 
forward to be on the panels, the advisory committees, and 
related activities. That's very important because sitting on a 
panel and seeing how selections are made is about as 
instructive as any activity could be in helping prepare 
proposals.
    We also have workshops on how to put proposals together so 
that you ensure that all the components are complete so it can 
be competitive. Also, it's very interesting that many young 
investigators, especially in the under-served regions, the 
EPSCOR regions, simply don't know that they can call the 
program manager, talk to him or her on the phone, and get 
advice. These very simple things are very important ultimately 
in success in competitions.

                             k-12 education

    Mr. Cramer. You brought up the GLOBE program and it's a 
terrific program. And in my State and in my area, there are now 
more than 200 schools and 400 teachers that are participating 
in that program. With your emphasis on educating for the future 
and our problems with seniors or high school level 
participation in science and math, I think the GLOBE program 
could fit very well, the expanded part ofthe GLOBE program 
could fit very well with the emphasis. Why do you think we're doing so 
poorly in the high school arena whereas it's my understanding we're 
doing very well with the younger students? But we're apparently losing 
them on the way up to high school and that's an important crossroads.
    Dr. Colwell. You've asked a couple of key questions. A 
study was done by the National Science Board back in the 1980's 
to look at the parameters, the characteristics, associated with 
success in science, math, and engineering, as evidenced by 
prizes or professorships or other achievements. And it turned 
out that the single factor that was the most closely linked to 
success was experience in a laboratory, working in a laboratory 
doing research with the guidance of a mentor. This is why we 
feel very strongly that supporting graduate students who are 
role models and supporting the GLOBE program, which actually 
involves students doing an experiment, is so very important 
because that then brings to the classroom the excitement and 
the sense of success and achievement that turns out to be a 
very critical criterion for success.
    When you get to high school, there's that dangerous period 
I guess. I guess all of us have been parents, so we know that 
period of 10 to about 14 is a very difficult one. If we can 
develop programs that will ensure involvement of children in 
science activities, and this is why the outreach to museums and 
aquaria and science centers----
    Mr. Cramer. Science centers and----
    Dr. Colwell [continuing]. Are very, very important because 
this then provides an opportunity for what can be recreation, 
but it can be educational recreation. So there are a variety of 
things we can do. Luther, would you like to amplify that?
    Mr. Cramer. Well, I'm afraid I'm close to my time.
    Dr. Colwell. Okay.
    Mr. Cramer. Okay. But one last point.
    Dr. Colwell. Yes, sir.

                          agency partnerships

    Mr. Cramer. I think partnering relationships with NIH, to 
the extent that I understand that relationship, and with NASA, 
especially if I understand or can begin to understand 
biocomplexity and biomedical research issues, is very 
important. And I think--I'm not afraid of duplication, I'm just 
afraid there is not enough partnering going on so that we share 
in input and direction that those projects and program can go 
in.
    Dr. Colwell. I agree with you because I think by leveraging 
in cases where a single agency can't do everything we can do an 
awful lot more.
    Mr. Cramer. Thank you, Mr. Chairman. I was a lot less long-
winded in my questioning. [Laughter.]
    Mr. Walsh. I believe Ms. Kaptur was next in line?

                    access to research opportunities

    Ms. Kaptur. Thank you, Mr. Chairman, very much. Dr. 
Colwell, I want to personally welcome you. I haven't had a 
chance to hear you testify before. And Dr. Eamon Kelly, I was 
so surprised. I was not aware you were chairman of the National 
Science Board, and I'm aware of your career and have great 
admiration for your work. We welcome you for sure and all of 
your colleagues from the National Science Foundation.
    Having served on this subcommittee for several years, I 
have to say even during very bad economic times when the annual 
budget wasn't balanced, I think this committee saw the national 
interest in funding the National Science Foundation at higher 
and higher levels each year. So I think we met our obligation 
to the country. We all wish it could have been more, but you 
again request a modest increase over last year. We're under 
pressure, that's for sure. But not like we were 10 years ago. 
So I just want to say that I will review your request very 
carefully.
    And, first, I'm going to ask for some information. One of 
my longstanding concerns with the way that we organize 
intelligence in this country comes out of my experience of 
being first elected during the great recession of the early 
1980's. And when I look around my own State of Ohio, a very 
great productive State, industrially and agriculturally, the 
communities that were the most hurt by that were the 
communities where research was not conducted, where 
universities barely function, where there was no marriage or 
communion between the National Institutions of Research, our 
research labs, the National Science Foundation, et cetera. That 
still continues for the most part.
    And though you can't do anything about that today, I just 
want you to be conscious of that concern of mine. And if you 
could provide for the record, as I've asked in past years, the 
major recipients of your funds at the university level starting 
from highest to lowest and then just looking out at the centers 
that we continue to fund and the places in the country that are 
hurting and what we might do to build better linkages there. I 
realize you have to have good science and you need to the best 
scholars and so forth. But I think you have the kind of minds 
there that could look at this problem from a national 
standpoint and say what can we do if we look at pockets of 
poverty, pockets of huge job dislocations and what can be done 
to wed the ideas of the future and the research that is being 
done perhaps in a better way than we've done in the past. So I 
would ask for that submission to the record.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Kaptur. Secondly, I wanted to ask you if I were a young 
student in college today, let's say I'm a junior or senior in 
engineering and the sciences, and I happened to be interested 
in basic research, not so much applied at the moment. Is there 
a website I can go to at the National ScienceFoundation that 
would give me internships perhaps, paid internships, associated with 
ongoing research that some scholar might be doing in a lab. If I were 
interested in employment maybe I would find myself at Tulane even 
though I might go to school at Ohio State? How would I connect to the 
people who are doing basic research across the country that may be 
being done in labs and not necessarily in private companies? Do you 
maintain such a roster?
    Dr. Colwell. We do answer those kinds of inquiries on a 
daily basis. In fact, students ask everything from whether we 
do a summer program to a graduate program. Let me ask Joe to 
comment?
    Dr. Bordogna. The answer is yes and no. We do have a 
website where you can get all the information on NSF. The no 
part is we don't yet have cognitive process, an easy way to 
ferret your way through it. But we're building up to this. So 
you can go into the NSF website and find every grant, where the 
research is being done. There's even a hot tips kind of thing 
on the home-page with the newest discovery of the last couple 
of weeks you can experience--that's always very exciting to see 
what's going on. A young person can get in there and look 
through it. We don't have, as I said, cognitive process so that 
is my instructive to the person going on line to lead him or 
her along the path.

                research experiences for undergraduates

    Ms. Kaptur. I wonder if some of these big grantees that you 
have endowed over the years might add a line to your 
application or something that if they have positions available 
during the summer month let's say that are paid related to some 
research, if you couldn't plug that in. The rare science and 
engineering students around the country, who have an interest 
in basic research. Maybe they don't want to just stay at their 
university. Maybe they want to go to work on something on 
somewhere else. I would encourage you for our national labs, 
though that's kind of a different area, maybe some of them 
might--I was asked this by a student and I was completely--I 
said, ``I don't know where to send you.''
    Dr. Colwell. Actually, some are not so shy. They just e-
mail me directly and I immediately direct them to whatever 
directorate that they're interested in. So we do handle the 
requests. But your suggestion is a very good one and we can do 
it.
    Dr. Bordogna. We actually have a program called Research 
Experiences for Undergraduates which has sites and those sites 
attract students from other universities, too. So that's all on 
the web. And my comment about it's a little bit tough to get 
through, the student wouldn't necessarily see that right at the 
front end, but it's there. And it actually says you can apply 
because we have a research site for undergraduate students at 
universities.
    Ms. Kaptur. I would love if you----
    Dr. Bordogna. We can send you information.
    [The information follows:]

          Research Experiences for Undergraduates (REU) Sites

    Attached are award listings of Research Experiences for 
Undergraudates (REU) Sites by NSF Division. REU Sites are established 
in all fields of science, mathematics, and engineering. Information can 
found on the NSF website: http://www.nsf.gov/home/crssprgm/reu/
reulist.htm.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Kaptur. And just to make you aware of that interest of 
mine.
    I was interested, Doctor, in what you said about reading 
and how people learn to read. One of the finest principles in 
Ohio has said to me, ``Marcy, we really need more research on 
how people learn.'' Could you comment a little more on that?
    Dr. Colwell. Yes.

                          research on learning

    Ms. Kaptur. And how you are approaching that issue?
    Dr. Colwell. Yes, we're developing, in collaborations with 
the NIH, for example, phonetics versus whole word assimilation. 
Some studies are being done now using normal children and doing 
imaging to determine whether a certain part of the brain is 
utilized by one method or another. If we have a scientific 
basis for use of a method, that could be very helpful. We now 
have some information that, for example, some children will 
learn very well if they have a book on tape at the same time 
they are reading visually. They do need to seem to need both 
kinds of input. And they assimilate a great deal more. As a 
country, we've focused so heavily on teaching, that now, with 
the new tools, the new information that'savailable, we can 
focus on learning and be able to understand better the different ways 
different children learn. I suspect, hypothesize, that perhaps some of 
the learning methods, we've actually pejoratively ascribed as learning 
disabled when, in fact, they are simply different ways of assimilating, 
incorporating, interpreting, and using information.
    Ms. Kaptur. How far along are we in that research and how 
is it disseminated to teachers and principals across our 
country?
    Dr. Colwell. We are launching a major effort in this 
direction. This is one of the areas of research that I think is 
very, very important.
    Ms. Kaptur. So it's new?
    Dr. Colwell. It's new.
    Ms. Kaptur. And where is it in this budget?
    Dr. Colwell. It's in the planning stage. It's in the 
beginning----
    Dr. Bordogna. We actually have a program in the budget in 
partnership with the Department of Education, which is research 
on the education process.
    Ms. Kaptur. Okay.
    Dr. Bordogna. So we have been leading up to this. And some 
of the IT, former research leading to the IT, things like 
learning an intelligent systems, how do people think and learn, 
how do we emulate that in a machine? So this is ongoing 
research. But now we're organizing the money into a bigger 
investment because the time is ripe. The people are there. The 
skills are there. The instruments are there. We're really 
finally getting a good handle on how people think and learn and 
how to build better education systems.
    Ms. Kaptur. I would be interested in any further 
information you can provide for the record on that initiative?
    [The information follows:]

            Interagency Education Research Initiative (IERI)

    The National Science Foundation (NSF), in partnership with the 
Office of Educational Research and Improvement (OERI) in the Department 
of Education (ED), and the National Institute of Child Health and Human 
Development (NICHD) in the National Institutes of Health (NIH), have 
issued a program announcement for the Interagency Education Research 
Initiative (IERI). Proposals are due to NSF on May 14, 1999 and awards 
will be made in September 1999. Total funds available under this 
initiative will be $30 million with $22 million from NSF and $8 million 
from ED. NICHD will participate in the evaluation of proposals and 
will, budget permitting, participate in the funding of recommended 
proposals that are relevant to NICHD's mission through existing NICHD 
programs. We expect to make approximately 50 awards.
    This Initiative will build a knowledge base for improving 
educational practice by: fostering innovative research on basic 
learning, teaching, and organizational mechanisms; and developing 
sustainable and scalable interventions in education. The long-term goal 
of the IERI is to develop the knowledge and experimental methods that 
will allow for the implementation and evaluation of large-scale 
educational interventions, which will, in turn, inform educational 
policy and practice. A particular area of interest is the use of 
information and computer technologies (ICT) as supports for reaching 
these goals, both for the initial exploration of ICT for teaching and 
learning, as well as the innovative use of existing ICT in homes, 
schools, and other learning environments.
    The long-term goal of this initiative derives, in part, from the 
President's Committee of Advisors on Science and Technology (PCAST) 
Report to the President on the Use of Technology to Strengthen K-12 
Education in the United States (March, 1997). As a first step towards 
implementing the PCAST recommendations for addressing the most pressing 
issues of preK-12 education, the focus areas for Fiscal Year 1999 IERI 
proposals will be research directed toward understanding how to make 
substantial improvements in:
    School readiness for learning reading and mathematics,
    K-3 learning in reading, mathematics, and science, and
    Education of preK-12 mathematics, reading, and science teachers in 
content knowledge, and
    Science underlying cognitive development and learning.
    Background information on this initiative can be found at the web 
site: http://www.ehr.nsf.gov/eri-ed-nsf

    Dr. Colwell. Okay.
    Dr. Bordogna. Sure.

            collaboration with the department of agriculture

    Ms. Kaptur. I wanted to ask you about your cooperation with 
other departments. I wanted to also thank you for your 
continuing emphasis on manufacturing in the industrial 
workplace back in the 1980's. Long before you were in your 
current positions, we had to fight to get that as an area of 
specialty. I really think it has made a huge difference 
already----
    Dr. Colwell. It has.
    Ms. Kaptur [continuing]. Across our country. And so we 
thank you for that. Conversely, on the productive side, not 
industrial but agricultural, I wanted to ask you in your 
biocomplexity area here, I am the ranking member on Agriculture 
and one of the continuing concerns I have there, if I look at 
what the Agricultural Research Service does and yesterday we 
had the Animal, Plant, and Health Inspection Service in front 
of us, APHIS, with a budget of about $450 million a year and 
the ARS less. But I am concerned about the, connection between 
what you do and what they do. What type of conversation occurs 
between you and the Department of Agriculture and its mission?
    Dr. Colwell. For example, in the Plant Genome Program that 
we have going, which is important and really should be expanded 
even more significantly. Since it's probably as important as 
the Human Genome Project in many ways because we have to have 
the food to survive as a human species, the basic research 
that's being done is in partnership with USDA. They are playing 
a role in it, but we have the lead. This kind of basic research 
needs this kind of interaction since the results that come from 
it need to be incorporated in more practical applications in 
the Department of Agriculture. So I think a linkage with the 
USDA, including stronger linkages in food protection for 
example, is very, very critical.
    Ms. Kaptur. I'll tell you they really, they do a 
magnificent job, but what they are facing in some of these 
areas is just monumental. With all the imported food, for 
example, coming into our shores. Florida now is faced with the 
virtual elimination of its citrus industry. We have huge 
problems now with this beetle that has come in from China and 
there's no answer. It's going to destroy our hardwoods. Now it 
hasn't destroyed them all, it's just starting. But it's sort of 
like the gypsy moth problem, there never is an answer. Not that 
you have to give them the answers, but in certain areas, if you 
could group the challenges they face and perhaps there are some 
basic scientific answers that could be developed to help.
    Dr. Colwell. Well, actually I'm going to ask Dr. Clutter, 
to respond. She works very closely with the USDA. But if you'll 
allow me the opportunity to say that one of the areas I feel 
very strongly about is that we need to expand in the future 
into genomics of pathogens of our agricultural products, the 
rusts of wheat and beetle infestations, and so forth. We really 
need to understand the genomics and the functional aspects of 
the genomics of these organisms and these systems. And 
biocomplexity is very important because we need to understand 
the interactions. It's not so simple to say we can eradicate 
the beetle. We have to understand what role it plays, what 
function it has, and what its genetic make-up is, so that we 
can control it in a very effective way.
    But, if I may, I'll ask Dr. Clutter----
    Mr. Walsh. If I could just say, Ms. Kaptur is over her 
time. We'll allow Dr. Clutter to respond as long as it's 
concise. You can't run through every gene in this critter so.
    Dr. Clutter. Okay. I guess I should come up to the table?
    Dr. Colwell. Yes.
    Dr. Clutter. I'm very happy to respond because we have had 
a very--good morning. We've had a very long relationship with 
the Department of Agriculture. We have several joint programs 
with them, especially in the area of genomics, which Dr. 
Colwell alluded to. And, coincidentally, just yesterday, one of 
the officials of the Agricultural Research Service came over to 
talk with me about genomics and the Department's role in 
providing long-term support for critical databases related to 
the genomics of important crop plants. That's an extremely 
important endeavor. And the Department of Agriculture wants to 
join with us on that. We can provide, through NSF, the seed 
funding to get these projects started, but we cannot provide 
funds for long-term maintenance of critical databases. The 
Department of Agriculture, through ARS, can do that kind of 
thing.

             collaborations with department of agriculture

    Ms. Kaptur. Mr. Chairman, I'm going to ask your indulgence 
just for 30 seconds here to say that I care so much about this 
and the way that we organize research related to our growing 
systems and what is happening to them, I would be very 
interested in a briefing that you could jointly provide to any 
interested members of our subcommittee.
    Dr. Clutter. Delighted.
    Dr. Colwell. That would be terrific.
    Ms. Kaptur. Along with USDA to try to--because you know 
what happened yesterday, the Citizens for Government Waste came 
out and they said, ``Well, what do we have to know about 
peanuts? There is some study they did over there on peanuts.'' 
One of the USDA's problems is they've got all these individual 
projects and the science of it gets lost in the public's mind 
and some of this is extremely important. People will laugh at a 
beetle. Well, they won't laugh when all their trees are 
destroyed.
    Dr. Clutter. Exactly.
    Ms. Kaptur. But somehow the science of it isn't as well 
presented as it might be at USDA. So I would just be interested 
in hearing from both of your respected entities on that, on all 
the research projects related to agriculture.
    Mr. Walsh. Thank you.
    Dr. Clutter. We would be very happy to do so.
    Ms. Kaptur. Thanks, Mr. Chairman.
    Mr. Walsh. I think that's a great idea. Obviously, we can't 
cover all the ground in this hearing. And I would encourage 
members to do this, sit down with the departments after things 
kind of slow down for us in the Appropriations Committee and 
learn as much as you can. It would serve us all very well.
    Mrs. Northup.

                    utilization of research results

    Mrs. Northup. Thank you. I would like to pick up where Ms. 
Kaptur left off and say that I am new to this committee and 
haven't seen the National Science Foundation in the past so 
much. I am on Labor, HHS, Education, so I see the National 
Institutes of Health. I think perhaps it's easier to organize 
research at NIH. But there are certainly two things that go on. 
There are the coordinated goals and grants which are solicited 
based on identified goals. We think the answer to cancer is 
going in these directions. Who are the best proposals to 
actually get us to the next level? And then there is 
investigator initiated that is more independent. And I think 
the concern that I have is how does the National Science 
Foundation make sure that they're not giving up a whole lot of 
unrelated grants that may be the answer to a question? It may 
be research--and it can be in any area, but it may be research 
on how do kids learn math. But it's focused on one school and 
one teacher that are exceptional and it doesn't really give us 
information about whether it's replicable, whether it's a 
method that would be applied successfully to all classrooms. 
I'm going to go in the direction of EPA and environmental 
research. How do we coordinate that so we really get an answer 
instead of making public policy based on one scientist's 
findings----
    Dr. Colwell. Well, let me answer using the Genomeprogram to 
respond to how we coordinate this research and not just throw a bunch 
of money around the country. In fact, the request for the proposal is 
very carefully thought out using advisory committees and workshops for 
investigators all around the country to help us shape the direction 
that we go in. So it's not just a helter-skelter sort of thing. Then 
the proposals, as they come in, are elevated by a panel that adheres to 
the request that's been developed. The proposals are selected on the 
basis of merit, but also on the contribution that can be made--some may 
be able to make contributions in a method and some may be able to make 
contributions in the actual sequencing, and some in how it can be used. 
And then, when the investigators are awarded their grants, we bring 
them together, as was done very recently, to talk to each other so that 
they can share what they plan to do and use their fellow investigators 
from around the country to bounce their ideas off of and receive 
criticism and suggestions. So we do not----
    Mrs. Northup. What percentage of the grants would you say 
go through that sort of coordinated process where they're all 
working together, when they know the other similar studies 
around the country?
    Dr. Colwell. I would say most of the work that we fund, in 
some way, shape, or form, is part of a coordinated matrix.
    Mrs. Northup. Let me ask you going directly to the EPA 
because my time is limited----
    Dr. Colwell. Sure.
    Mrs. Northup [continuing]. I would like to investigate some 
of this further, but my time is limited----
    Dr. Colwell. Please come and visit us.

                 peer review of environmental research

    Mrs. Northup. The environmental questions are enormous 
because we're making public policy based on studies that are 
not peer reviewed, where the raw data is not available for 
others to interpret, and I wonder if it doesn't make sense to 
move all of the EPA's research dollars under the auspices of 
the National Science Foundation so that it can be peer reviewed 
and replicated; and we'll know once and for all what the 
science shows? And why would anybody object to that? 
[Laughter.]
    Mr. Walsh. Yes or no. [Laughter.]
    Mrs. Northup. Unless you want to make public policy and 
cite science that you're afraid----
    Dr. Colwell. No, you asked a very serious question and let 
me answer it. And that question we are addressing in 
biocomplexity. What we're attempting to do is to provide the 
scientific basis, the scientific knowledge, that enables us to 
understand the complexity of how a system works in its entirety 
and to develop predictive models that are based on factual 
information derived from laboratory experiments and field 
experiments. We've got about 20-plus long-term ecological sites 
that have been ongoing for several years and may go as long as 
25 years. It's critical that we link these together, and we 
intend to do this with some of the research monies that we have 
in the budget, because we want to provide them with video 
teleconference and e-mail capabilities so that, as they get 
data in North Dakota and data in Florida, these data are 
shared. Through the biocomplexity initiative, we can interpret 
all of the data.
    Mrs. Northup. I'm not questioning what you're doing.
    Dr. Colwell. Yes.
    Mrs. Northup. Does it not make your hair stand on end to 
know that there are isolated scientists being given grants over 
in EPA and there's no peer review, no coordination, and no 
other area where the same thing is being done?
    Dr. Colwell. We have been working with EPA and we do have a 
program where we work together. We develop requests for 
proposals. And we do peer review. And, as I understand it, 
because I've only been here six months that makes me an expert 
I guess, but, in any case, what we are intending to do is to 
infuse the peer review system as practiced by the National 
Science Foundation----
    Mrs. Northup. And NIH.
    Dr. Colwell [continuing]. And NIH into more of the 
Environmental Protection Agency.
    Mrs. Northup. I just thought I would say that concerning 
peer review, the importance of it isn't that you catch 
mistakes, it's that the people that come to the conclusions 
know scientists of their equal status will review it. And they 
are less likely to come to a conclusion that no one else would 
come to----
    Dr. Colwell. That's right.
    Mrs. Northup [continuing]. When it's going to be opened up 
and seen in the light of day. And I saw a statement where you 
or one of your top people said, ``Peer review is the most 
important----
    Dr. Colwell. Criterion.
    Mrs. Northup [continuing]. Part of making sure science is 
validated?''
    Dr. Colwell. Yes, yes.
    Mrs. Northup. It's very difficult not to get the results 
you want. If I'm contracting with you for research and you know 
I want a certain result, it's very hard not to be swayed by 
that unless an independent agency handles it.
    Dr. Colwell. Well, I agree with that. And you also give me 
an opportunity to say that I am very concerned about being 
required to send data out before you even have a chance to 
analyze it. I do think that that law is a serious problem 
because you do need to replicate experiments.
    Mrs. Northup. Right.
    Dr. Colwell. You do need to make sure that it can be 
repeated, colleagues can repeat it, and that you can interpret 
it, and then present your hypothesis and your conclusions to 
peer review through peer reviewed journals. So I think that 
process is very critical, and we do have to protect it. And the 
Science Board has made a very strong statement about that data 
issue.

                                 epscor

    Mrs. Northup. Let me also talk to you as an EPSCOR State. 
And I have a little different take than has been presented 
about EPSCOR. NIH has a similar, a parallel sort of program. In 
Kentucky, when we realized how little NIH money we received, 
the legislature appropriated $120 million to be matched by 
local communities in order to raise up the level so that they 
could compete more effectively. And I'm eager for EPSCOR to be 
there as a coach, a mentor, an advisor, as someone who can help 
States who want to make that investment in their own 
engineering and science programs so they can do a better job. I 
am not interested in having EPSCOR be a welfare system. It says 
something to me when I realize that Kentucky has been an EPSCOR 
State, and still is an EPSCOR State along with some of these 
other States. If you're an EPSCOR State, I guess what it is 
saying is that you're not taking any initiatives on your own?
    Dr. Colwell. Well, let me respond because there are many 
facets to this and you raise very critical questions. Firstly, 
we find that what is happening is that the infrastructure is 
being built up. That Engineering Research Center in Mississippi 
is very competitive and very, very good. What we need to do is 
build partnerships with industry and with the States and, in 
effect, that is what we're considering as the next stage for 
those EPSCOR States. And almost all of them have reached a 
level of competency that allows them to move to another level. 
And it may be through industry-State collaborations that we may 
be able to make that next leap to being fully competitive 
because we do have to have science and engineering and 
technology in every part of this country----
    Mrs. Northup. Right.
    Dr. Colwell [continuing]. To drive the economy, to raise 
the standard of living, to stabilize the social system, all of 
these reasons.
    Mrs. Northup. And I agree with that and I think EPSCOR is 
hugely important and a wonderful vehicle to do that. But I 
hope--I'm going to go back and see what we're doing in Kentucky 
to partner the money at every level so that we do a better job 
in not being an EPSCORState forever. But I think it's important 
that we not think of that as an entitlement because what we do is we 
endanger--the funding will go to the less valuable research rather than 
the most valuable research.
    Dr. Colwell. Well, we do not view EPSCOR as an entitlement. 
We view it as strengthening infrastructure building, human 
capital strengthening to do just what you're describing.
    Dr. Kelly. And the EPSCOR program in the individual States, 
as you well know, is based on peer review within those States 
and strengthening that process. And I do appreciate your 
emphasis on the integrity of the research process and those 
questions about integrity of research earlier this morning. And 
the whole question that has come up now in using the Freedom of 
Information Act for the premature release of scientific data is 
very, very dangerous in terms----
    Mrs. Northup. Yes.
    Dr. Kelly [continuing]. Of the research process and 
something that will be facing you all in the future. But the 
integrity of the research process, the quality of the peer 
review process, and the whole scientific process that has now 
generated this tremendous engine in this country that is the 
fulcrum, this $4 billion investment fulcrum, on this $8.5 
trillion economy, that process that you highlighted is very, 
very important. And we should not tinker with that unless we 
really know what we're doing. There's enormous risk in doing 
that.
    Mr. Walsh. And your time is about up.
    Mrs. Northup. Thank you.
    Mr. Walsh. Do you want to----
    Mrs. Northup. Let me just comment and say I do think it is 
valuable to raise the question about EPSCOR. Once you start 
giving contracts out to certain institutions, they become 
better and better and better. Raising them up is important.
    Dr. Colwell. Right.
    Mrs. Northup. Thank you.

                                 hiaper

    Mr. Walsh. Thank you very much. We can now begin the second 
round and the order is I'll go first and Mrs. Meek, Mr. Wicker, 
and Ms. Kaptur.
    My staff advises me that there's an atmospheric research 
plan that was expected to be funded in this year's budget. I 
believe it's called the High-Performance Instrumented Airborne 
Platform for Environmental Research (HIAPER). I'm also told the 
atmospheric science community was significantly involved in its 
planning and the need was clearly documented. No other plane 
has the range altitude, payload capacity, and operational 
flexibility needed for today's research. And, three, the plane 
has been approved by the National Science Board. However, I 
don't find any reference to HIAPER in the budget request. What 
happened?
    Dr. Colwell. The request was made for the funding for it. 
It was declined by the OMB, but without prejudice. In other 
words, it simply was a matter of budget. We are continuing 
planning for it and hope that, in subsequent years, we may be 
able to build that airplane.
    Mr. Walsh. OMB then considers other parts of your budget a 
higher priority than this?
    Dr. Colwell. Yes.
    Mr. Walsh. So they do, in fact, sort of dictate policy?
    Dr. Colwell. Well, it was deferred without prejudice and 
planning activities for acquisition to continue.

                    biocomplexity in the environment

    Mr. Walsh. We spoke several weeks ago and I know this 
biocomplexity project is very important to you. So if you need 
an opportunity to explain why you think so and you've already 
done a little of that, if there is anything you didn't cover 
earlier on?
    Dr. Colwell. Well, let me just say that the time is 
absolutely right for this. We have the computational ability. 
We have the instrumentation. We have burgeoning knowledge in 
genomics. Every day, practically, another organism is 
sequenced. In terms of micro-organisms and the advancement of 
plant sequencing, the Arabidopsis, the small flowering plant 
sequence, is being completed. So we're really moving very, very 
fast. These data are available along withsome of the elegant 
and very complicated ecosystem analysis involved in studying, for 
example, carbon cycles and geo-chemical cycles. All of this information 
is in little compartments. It's now time to bring it together to be 
able to derive from the whole some of the fundamental principles of how 
environmental systems function, and what happens when the system 
deteriorates. What drives an ecosystem when it has been polluted to a 
point from which it is very difficult to recover? So I think it is this 
kind of information we can gather. And as to some of the earlier 
questions with respect to solid scientific information, we do need it, 
and I think with the biocomplexity initiative, we can do it in a 
holistic way.
    Mr. Walsh. Talking about analyzing millions, if not 
billions, of factors, how close are we to having the ability to 
do that?
    Dr. Colwell. With the computation that we're developing 
through the Information Technology Initiative, we are pretty 
far along. Just from my own research experience, we've been 
able to determine the source of cholera in the small 
microscopic creatures in the estuaries and rivers. And we've 
been able to correlate El Nino events with cholera epidemics in 
developing countries where they don't have filtration and 
chlorination of their central water supplies. They don't even 
have central water supplies. And it has given us a very clear 
insight on the role of climate in human health. We couldn't 
have done that without remote sensoring data from NASA, and the 
oceanographic data from NOAA, and the data from the medical 
community, and putting all of this together with the 
microbiology.

                    biocomplexity in the environment

    Mr. Walsh. In previous years, we've funded a program known 
as Life and Earth's Environment, LEE. As I understand it, this 
program, which was appropriated at nearly $600 million in 
Fiscal Year 1999, has been merged into a new program known as 
Biocomplexity and the Environmental, BE. Some $670 million has 
been requested for BE in the year 2000 budget. Your 
justification indicates that BE efforts includes both focus 
initiatives and core research programs and will look at complex 
interdependencies and interactions of different types of 
systems, sort of what you're describing. How does the 
aforementioned $50 million focused proposal relate what to what 
you expect to accomplish with the $670 million BE effort?
    Dr. Colwell. Actually, again, as with the Information 
Technology initiative, we haven't just had programs in the past 
and cut them off and let them drift out to sea. We've built on 
them. They are in a sort of natural evolutionary process with 
what has been done in Life and Earth's Environment, Life in 
Extreme Environments, combined, providing the basis for 
biocomplexity, which, in essence, brings them together and 
expands on those capabilities. So it's an evolving kind of 
process. It's a continuum. It's not a segment of research 
that's been finished. We are building on it.
    Mr. Walsh. Well, is this $50 million just an embellishment 
on this BE project?
    Dr. Colwell. No, it's not just an embellishment. What it 
does is provide the capacity for interpreting and building the 
databases and provide the capacity for being able to jointly do 
inter-disciplinary kinds of experiments that will move us a 
step, a greater step, forward.
    Mr. Walsh. What is it that separates the $670 from the $50 
million?
    Dr. Colwell. You can view it in the way we have organized 
in the past our departments and universities--Department of 
Chemistry, Department of Biology, Department of Physics--and 
what we're trying to do now is to bring these together so that 
the outlook and the experiments and the kind of experimentation 
that you would do as a physicist can be brought to bear on 
biology. These kinds of inter-disciplinary experiments are 
proving to be very exciting, very knowledge-rich.
    Mr. Walsh. Well, if it's inter-disciplinary, why wouldn't 
you meld the two resources or just use the one existing 
program?
    Dr. Colwell. Because the programs continue, but they arenow 
being brought into a mix of understanding.

                            opportunity fund

    Mr. Walsh. You have something called the Opportunity Fund 
that in the past you would go to the different directorates and 
scrape up a certain amount of money and then make that money 
available for projects that, while not peer reviewed, were 
considered important or otherwise interesting and for the 
investment. Now you have a budget item, a line item called the 
Opportunity Fund. Why can't you do it the old-fashioned way?
    Dr. Colwell. Well, actually the comments made by 
Congresswoman Kaptur addressed this. We had the chance with the 
Opportunity Fund to begin some of the learning research. We 
have the opportunity with the Opportunity Fund to start the 
graduate education fellowships right away. The response when I 
spoke about it was so positive that graduate students 
immediately wanted to be involved. In fact, we've had several 
hundred pre-proposals for this program. And, in order to get it 
started now, we have the funds to be able to jump-start it. 
This is critical. There are a number of things that come up 
that we need to be able to quickly get started.
    Mr. Walsh. Is the $50 million for the biocomplexity project 
sort of an extension of this Opportunity Fund?
    Dr. Colwell. We've used some of the Opportunity Fund, along 
with new money, to get this started, yes. We started this year, 
with Opportunity Fund money, the microbial observatories as a 
first baby step, if you will, toward biocomplexity.
    Mr. Walsh. So now we have an $80 million Opportunity Fund?
    Dr. Colwell. No, we have a program. After this gets 
started, the Opportunity Fund money then goes back and we work 
on another----
    Mr. Walsh. Does the way OMB determine funding force you to 
segment these dollar amounts so that you can function the way 
you want to? The way they want you to?
    Dr. Colwell. Well, accountability requires that we show how 
the directorates are utilizing it and contributing to it. I 
don't think it's inhibitory. We do have the means by which we 
can account for the expenditures. And I have no objection to 
this. I think we need to be sure, you need to be sure, that the 
money that we're allocated is being wisely used. That's 
perfectly feasible. Joe, do you want to add to this?
    Dr. Bordogna. The Opportunity Fund has a cultural meaning 
to it also. We're set up like a university, in disciplines, et 
cetera, and directorates. And that's important because 
disciplinary-wise you get discoveries by digging deep into 
something and devoting yourself to it. But the issues we are 
talking about here, many of them cross those boundaries. So 
what we're trying to do with this Opportunity Fund is weave a 
fabric among the boundaries.
    Mr. Walsh. Do you relegate certain funds within that 
Opportunity Fund for each one of those disciplines?
    Dr. Bordogna. No, the way we operate this is as a group of 
the heads of the directorates, that is the ADs, are the group. 
It's called the Integration Group. We meet weekly and we look 
at all the boundary crossings, what's going on. The purpose is 
to ask what are the linkages among the disciplines? What are 
the issues that are important to the Nation? And we say okay, 
we have an Opportunity Fund to seed a change this year. We can 
do it quickly. We'll do an experiment. Or we may say we need a 
couple of workshops to get our arms around what's going on. So 
it's a Fund that moves us as a venture--a new venture to move 
things ahead. But the Fund is for the boundary crossings 
specifically, and to move those crossings within a year's time. 
And we report everything we do. There's a report for the 
Congress, for OMB. And those reports, really, when you look at 
them you see that we wouldn't be able to move NSF in these 
directions more quickly if we hadn't had this Fund. So that's 
what it is. It's opportunistic too. It's a management tool.
    Mr. Walsh. My time has expired. And I will now yield time 
to Mrs. Meek.
    Mrs. Meek. Thank you, Mr. Chairman.
    Mr. Walsh. Thank you.
    Mrs. Meek. I have looked at your analysis and your 
descriptions here. They are very descriptive and they explain 
to a great extent what you're doing. I commend you for that.
    Dr. Colwell. Thank you.

                    biocomplexity in the environment

    Mrs. Meek. I'm a little nervous about biocomplexity. It 
just doesn't seem that--maybe I need some more briefing, but 
I'm not able to see how in the end, this doesn't end up as 
being another bunch of scientific data that doesn't lead 
anywhere. I know that that's not your intention. I'm sure it 
is. But you're asking for $50 million to put into this new 
``initiative.'' I'm just wondering is it going to lead--I know 
it will lead to educational data and all that, but will it lead 
to any economic good? Give me just one or two examples how this 
can really come down to leading to some economic good? I've 
been around a long time, Doctor, and I'm just trying to get a 
feel for where's the beef? [Laughter.]
    Dr. Colwell. Well, that will be part of it, so the beef is 
there. But, seriously, let's take, for example, extreme weather 
events.
    Mrs. Meek. All right.
    Dr. Colwell. Over the past couple of years, there's been 
some collaboration between those who gather weather data, those 
who gather let's say local storm events through the global 
positioning mechanism, and those who gather the epidemiology 
data on the outbreak of disease, cryptosporidium. We had our 
own little scare in Washington. We had a boiling water alert. 
When we overlaid the weather map in extreme events, and the map 
of those outbreaks of cryptosporidium, and the map of the 
climatological factors preceding and afterwards, we found that 
those weather events coincided directly with the 
cryptosporidium outbreaks. Pursuing it further, we were able to 
connect it to the fact that there were sewer outflows that were 
defective in certain locations that led to the contamination of 
the water supply.
    Now that may have seemed obvious--anybody could have said 
that's probably the case. But here we had predicted three 
weather events. We had the weather events themselves. And then 
we had a study that tracked those specific areas that ended up 
with the outbreaks. This allows us then to provide advice with 
respect to preparing for storms, expecting a given event, 
preparing for post-storm, activity, but also targeting areas 
which probably need strengthening of their systems. So that's 
one sort of event.
    Another is the El Nino. Being able to take oceanographic 
data, satellite date, weather data, ecological data and then 
predicting that during the summer of 1997 there were going to 
be mud slides in California which, in fact, occurred. Being 
able to make these sound predictions can save incredible sums 
of money. Being able to specify tornado predictions within a 
matter of hours and to focus them geographically within miles, 
means that you will be able to economically target where the 
really serious protection needs to be done and thereby save a 
lot of money.
    Mrs. Meek. So you've got to cull data from everywhere?
    Dr. Colwell. Exactly.
    Mrs. Meek. I understand.
    Dr. Kelly. The National Science Board has put together a 
task force on biocomplexity and the environment because it's 
our conviction that the lack of basic research and education in 
this field may be the single most important variable, not only 
in the quality of life ranging from mud slides to famine, but 
also in the economy in the United States. This can become the 
largest single constraint, you have toxins in the air, toxins 
on land, toxins in water, you have its impact on the warming of 
the oceans, on the atmosphere, on weather patterns. All of this 
is having impacts that we really not only don't understand the 
impacts yet, we don't understand the cause. We don't have the 
basic research for it. We think this is one of the most 
critical areas that there is in the entire NSF budget.
    Mrs. Meek. Thank you. Mr. Chairman, may I have just another 
second?
    Mr. Walsh. Yes, you may.

                        natural hazards research

    Mrs. Meek. Okay. I think myself, I was always say this as a 
Congresswoman. I come from a State where we have a quite of bit 
of damage from hurricanes and those kinds of things. I 
represent people who live in trailer parks and they're poor 
people; and I have a very strong feeling for them. I'm just 
wondering if some of these data will come out showing how this 
kind of thing can be helped? Why is it there is so much 
destruction and devastation? What can we do? That's the 
economic kind of thing that I'm looking for?
    Dr. Colwell. Yes, you're addressing the issue of precisely 
why we need to invest in the kind of basic research on 
circulation patterns of the atmosphere, basic research on 
oceanographic circulation, basic research on the effect of 
demography and basic research on deforestation and the effect 
it has on climate patterns. This research needs to be brought 
together so that, in the future, the precision of 
predictability can allow you to say even which trailer park is 
going to be affected so that you can evacuate those people 
immediately. Combined with that is the structural research that 
is being done in engineering so that we build better 
structures. We're intending to do this with our national 
engineering earthquake research program, which will address 
these very practical problems down the road. But there's a bit 
of time between here and there.
    Mrs. Meek. I understand. Thank you very much. Thank you, 
Mr. Chairman.
    Mr. Walsh. Thank you. Ms. Kaptur.

                      engineering research design

    Ms. Kaptur. Yes, Congresswoman Meek's question on 
earthquakes and tornadoes and hurricanes, it leads me right 
into mine, which is that your efforts to try to find ways to 
predict what might happen with natural disasters, I want to 
talk about some human caused disasters relating to explosives.
    Dr. Colwell. Yes.
    Ms. Kaptur. And we've actually lost more people in this 
country and abroad through explosions that affected buildings, 
whether it was the World Trade Center or Oklahoma City, than we 
have through earthquakes and some of the other natural 
disasters. And I guess my question is to what extent is the 
National Science Foundation involved in research related to how 
we can get our physical infrastructure to better withstand 
those impacts? How one designs internal ways, sub-systems, et 
cetera? Does this have any place in your research at NSF?
    Dr. Colwell. Yes, it does, very much so. In fact, part of 
the Earthquake Engineering Research Initiative is to be able to 
understand the impact of an explosion on structures, and how 
you make them stronger, how you build them so that the 
shockwaves are resisted. But we also need studies of chemistry 
to understand precisely. We've reached a point in physics which 
is just amazing. We can actually now visualize an atom. We've 
reached the point where we can construct molecules. It's a very 
exciting time. We can build better materials through the 
materials research that we're doing at the National Science 
Foundation, more shock-resistant materials that will be longer-
lasting, better materials for building bridges and buildings. 
This is part of our portfolio and it's extremely important, 
which is why I feel very strongly about this investment of $4 
billion compared to mission agencies of $10 billion. We really 
need to increase our basic research funding.
    Ms. Kaptur. In this area of physical buildings and 
structures and design, is that housed in any particular place? 
Is it in the earthquake area?
    Dr. Bordogna. Engineering Directorate and Civil and 
Mechanical Systems Division.
    Ms. Kaptur. It is?
    Ms. Colwell. Yes.
    Dr. Bordogna. But again it's connected again to many places 
in the Foundation----
    Ms. Colwell. Chemistry, physics.
    Dr. Bordogna. Chemistry, physics, materials.
    Dr. Colwell. Math.
    Dr. Bordogna. Computing. Because we're getting to a point--
--
    Dr. Colwell. We did a simulation.
    Dr. Bordogna [continuing]. Where we can simulate these 
things now. So we do not actually have to build the wall. We 
can simulate the wall and so on. So it's very new and growing 
research, too.

                basic research in information technology

    Ms. Kaptur. I just have one additional question, Mr. 
Chairman, and one comment. You are asking for, Doctor, $146 
million for the Information Technology for the 21st Century 
Initiative.
    Dr. Colwell. Yes.
    Ms. Kaptur. And I know Bill Gates just set up a foundation 
of $4 billion related to his company. It's interesting to me, 
he set up a family foundation, so he got the bigger tax bite 
than the public charities. But then you get a lot of publicity 
though. And but it just interests me, you feel that this is 
necessary for basic research?
    Dr. Colwell. Yes.
    Ms. Kaptur. You don't feel the companies are doing this or 
their foundations couldn't do the basic research? Couldn't we 
ask some of those who have made so much off this particular 
technology to help do computing research?
    Dr. Colwell. There are two answers to your question. One is 
that, yes, we do need the Federal funding. There's no question 
that the DARPA funding and the NSF funding led to the Internet. 
That was funding just to connect research laboratories, which 
led to language and software that allowed us then to spin out 
to the community. So there's the kind of basic research, for 
example, DNA-based or neural-netting research that may result 
in the next kind of computer, that I doubt will be otherwise 
funded.
    But there's also another very subtle but important 
connection, and Dr. Kelly and I have been looking at ways that 
we can go in directions that can be symbiotic with foundations. 
If we have common interests, we can coordinate our funding 
directions to advance a field even further.
    Dr. Kelly?
    Dr. Kelly. So we've been meeting with the large 
foundations, as well some of the smaller ones. We have not met 
with the Gates Foundation yet, but I don't think they've 
decided their real detailed directions. But we've been meeting 
with them to see to what degree we can make their dollars more 
effective. They in turn are trying to make--we're trying to use 
their dollars to make more effective for public purposes. 
They're trying, of course, to leverage Federal dollars. But we 
think there's a synergistic impact here that we have taken full 
advantage of but we want to do that in the future.

                      research on the human brain

    Ms. Kaptur. And, finally, my last question relates to a 
different topic which is with the Decade of the Brain and all 
of the research being done on the functioning of the human 
brain, to what extent is the National Science Foundation 
involved in any research regiments dealing with mental illness 
and the causes? And I doubt that you'll deal with the 
treatments, but the way in which the human brain functions?
    Dr. Colwell. Right. We're doing elegant work in 
developmental biology, the development of the brain from birth, 
well, pre-birth, through adulthood. We're doing elegant 
research on networking, simulating brain activities and 
functions--basic research. And, again, here's where we can 
partner with NIH and leverage the effort even more effectively. 
So we're doing the very basic research that NIH would not be 
doing because they're more clinically-oriented. But yet we can 
partner with them.
    Dr. Kelly. That comes back to what I was talking about 
earlier in terms of that basic research, both in terms of what 
is going on, where you've seen in the major medical 
breakthroughs. They've all really been founded in the basic 
research as a prelude to what takes place in any of the mission 
agencies, including NIH. The same thing with the entire 
information technology industry and almost all of your 
technological innovations have originally been based on basic 
research. And so that's why those are turning back through NSF. 
And that's why I think our principal economic risk is that the 
basic research investment in this country is too small for the 
size of the economy.
    Dr. Colwell. That's right.
    Dr. Kelly. But we are involved in those areas and 
eventually they're the ones that have the long-term payoff of 
those basic research investments.
    Ms. Kaptur. I know we have about three minutes left before 
the vote, but I just wanted to say I hope that with the White 
House Conference on Mental Health coming up this year, that the 
National Science Foundation will work with Mrs. Gore to make 
sure that you have some place at the table in the planning and 
the execution of what is presented.
    Dr. Colwell. Thank you. I would mention that the NSF and 
NIH does have a Human Brain Project underway jointly.
    Ms. Kaptur. Thank you.
    Mr. Walsh. Thank you. We'll go up and vote. We have another 
half hour scheduled. I'm not sure if we'll need it all, but 
we'll give everyone the opportunity to come back one last time 
so be patient. We should be back in five minutes.
    Dr. Colwell. Thank you. Thank you very much.
    [Recess.]
    Mr. Walsh [presiding]. Is everyone here? All right. Mr. 
Knollenberg?
    Mr. Knollenberg. Mr. Chairman, thank you. That's really 
coming right in.
    Mr. Walsh. Pretty good service? Timing is everything.
    Mr. Knollenberg. Well, Doctors, thank you very much for 
coming in this morning.
    Dr. Colwell. Thank you.
    Mr. Knollenberg. I have just a couple of brief questions. 
I'm sorry I missed your testimony, but I wanted to come back to 
the issue as to where you are involved in this climate change 
matter. Now I think you probably testified that it's a case 
where you're independent, as independent as you can be, of 
being the believers in peer reviewed science, the peer review 
process. And I suspect that to the extent that you can be, you 
would like to think of yourself as being free from political 
pressure. I've listened to the politics involved, but your 
judgment in the end has to be one that gets you in style, along 
the lines of your protocol. Is that not true?
    Dr. Colwell. Yes, sir.

                       research on climate change

    Mr. Knollenberg. Do you have a particular position at all 
on the climate control issue? Have you taken a position?
    Dr. Colwell. Let me say that I work in this area and my 
view is, sir, that we know very little about climate and human 
health relationships. And we're just beginning to understand 
the intersection of the various aspects of the climate driving 
systems, like the oceans, the atmosphere, solar winds for that 
matter, and vegetation. All of this is very much an interplay 
and as a complex system, we need to understand how it works. 
And that's why we have really focused very hard on 
understanding biocomplexity.
    In my own research, we've taken satellite data, provided by 
NASA. We've taken oceanographic----
    Mr. Knollenberg. You take this--have you been asked to take 
this responsibility?
    Dr. Colwell. In my previous position, I worked on climate 
and health and infectious disease. By using satellite data, we 
were able to determine ocean surface temperatures and tidal 
heights, and then oceanographic data provided us with the 
populations of plankton that moved in and around the tidal 
estuaries. And then using medical data, clinical data in 
hospitals in Bangladesh, India, and in Latin America, we were 
able to correlate the relationship of the El Nino events with 
outbreaks of cholera, a devastating disease that killed 3,000 
or 4,000 people in Peru in 1991, 1992. We had 300,000 cases.
    So these kinds of relationships between hanta virus that 
occurred in New Mexico, the insect-borne encephalitis, malaria, 
and----
    Mr. Knollenberg. But as it comes back down to the climate 
itself?
    Dr. Colwell. In reference to the climate itself, we need to 
understand better what drives----
    Mr. Knollenberg. These factors in light of the environment?
    Dr. Colwell. Yes, sir. We need to understand better these 
factors.
    Mr. Knollenberg. That would make sense to me and I'm not a 
scientist and I'm a poor scientist, in fact. But it sounds 
commonsensical for you to take that approach. Has any agency of 
the Government asked you to conduct any research specific to 
CO<INF>2</INF>, carbon dioxide?
    Dr. Colwell. No, but we have a study underway to study the 
carbon cycle and that's fundamentally important. As a 
microbiologist, I can tell you that the biggest churner, the 
biggest roto-rooter, if you will, are the microorganisms, which 
fix carbon and release carbon as CO<INF>2</INF> and so, again, 
it comes back to understanding biocomplexity. Vegetation, 
microorganisms, animals--how does this all work as a system? 
And how does the carbonflowing through the system work? 
Understanding this is critical.

                       research on climate change

    Mr. Knollenberg. Just a little thing I'll throw out that's 
relative to CO<INF>2</INF>, to the extent it's man-made, 
creating some problems as more emissions obviously are created 
by man, but whether that's a problem is I think another matter. 
Whether it heightens concerns is another thing that there seems 
to be some debate, mixed views within the scientific community. 
I wonder, what is prevailing here?
    Dr. Colwell. Well, there's some very interesting work being 
done. For example, just in today's paper, there's a very 
interesting experiment that has been done to add iron to some 
nutrient deficient areas, referred as the ``Geritol 
Experiment'' in The Washington Post. But what it really means 
is that you're adding iron that is lacking and then the 
populations or plankton become abundant and they can fix more 
of the CO<INF>2</INF> and address the problem. The Japanese----
    Mr. Knollenberg [presiding]. Fix more of the 
CO<INF>2</INF>?
    Dr. Colwell. I'm sorry, I'm using scientific terms. They 
can actually take it up, incorporate it, use it as a nutrient. 
They use it as we----
    Mr. Knollenberg. Which isn't necessarily bad, is it?
    Dr. Colwell. No, no, no. No, in fact, that's one way of 
recycling it. And the Japanese have been working hard to 
develop strains of algae that fix, that take up and utilize, it 
as food, using more CO<INF>2</INF> than average. So there are a 
variety of research projects being done around the world to 
address how best to recycle the carbon and bring it better into 
balance.
    Mr. Knollenberg. To the extent that you have gotten engaged 
in this project and it's early presumably, do you have any 
thoughts that you could level on us today as to where this 
whole debate might be going?
    Dr. Colwell. Well, I've made a number of trips to the 
Antarctic and I do think that the polar program is very 
important because we do see an increase in the ozone hole. It's 
real.
    Mr. Knollenberg. That's ozone?
    Dr. Colwell. That's right. It's real. But it indicates that 
there are changes occurring. We need to better understand what 
the significance of these changes are and we definitely need to 
be involved in both the Arctic and the Antarctic because 
they're kind of barometers for us, if you will. They are 
barometers as to what's happening globally. And it's very 
critical data that we're getting.
    Dr. Kelly. At the Board level, we've been very concerned, 
as I mentioned earlier, we have an environmental task force 
working on that, both the Board and staff task force, and the 
one conclusion, we do need a great deal more data and a great 
deal more information. But that information and that data and 
these forces are critically important in terms of both human 
health but also economic development, the economic impacts can 
be substantial. We just need to know a great deal more about 
them.
    Mr. Knollenberg. Yes, I would agree with you. If you would 
continue that search. I was just going to suggest to you that 
based on what you've told me in a short time, that maybe you 
should be the body that does the investigation in this arena 
rather than entrusting it to let's say other Federal agencies, 
such as the EPA, which does have opinion about this.
    Dr. Colwell. Well, we do research, we participate in the 
program. We have a targeted level of about $187 million. And so 
we are a player, a serious player and it's important for us to 
be. I agree with you.

                         environmental research

    Mr. Knollenberg. The belief I have is that the EPA has 
politicized this to a point that makes it questionable of 
whether the results they're projecting are really valid. Maybe, 
in fact, to make it really balanced and get the right kind of 
peer reviewed science, what would you say if there was some 
effort to move the budget for the EPA and research over to NSF?
    Dr. Colwell. That's really hard for me to comment on. All I 
can say is we are clearly under-funded. There's no question. 
The basic research that we're doing, the $4 billion is not 
enough in a multi-trillion dollar economy. I heard just the 
other day George Milne of Pfizer saying that his company 
invests 18 percent of their gross sales in research. If we did 
that as a country, we would really have answers to the 
questions that you're posing.
    Mr. Knollenberg. Well, I think because you are an 
independent body, you're structured that way and you believe in 
a peer reviewed approach, that it might be wise for us to think 
about that kind of a move where you become the body to conduct 
some independent set of studies that would perhaps provide more 
clarity on this whole thing than what we tend to get from 
politicizing it from both sides. And I don't mean to suggest 
that both sides don't have a political angle here. But 
certainly in the end NSF might be an arena to conduct a more 
balanced investigation of this whole issue.
    So, again, I apologize for coming in very, very late. And 
I'll submit other questions for the record. Is the chairman 
returning? He's in the other room. But he may want to come in 
and conclude this in which case, we'll find out here. But I do 
think the work that you do is solid. It appears to be 
independently sorted out and advanced. So with the kind of 
thinking and the kind of work that you've done in times past, I 
think there might be some reason to have you look into that 
arena or for us to suggest that?
    Dr. Colwell. A bigger investment in basic research----
    Mr. Knollenberg. I recognize that.
    Dr. Colwell [continuing]. Is really worth it.
    Mr. Knollenberg. It's a matter of moving research funds 
around. So I appreciate your thoughts and your expression and 
comments. Mr. Chairman?
    Mr. Walsh [presiding]. All set?
    Mr. Knollenberg. I'm all set.
    Mr. Walsh. Great. I have just a few mop up questions.
    Mr. Knollenberg. Mr. Chairman, one thing, I would like to 
have a comment submitted for the record?
    Mr. Walsh. Absolutely.
    Mr. Knollenberg. And I'll get that down to you.
    Mr. Walsh. Very good. I suspect other members will want to 
do that too.
    Dr. Colwell. Yes.

              priority setting in research and development

    Mr. Walsh. Dr. Kelly, in the report accompanying the Fiscal 
1999 appropriation for NSF, the committee called on the 
Foundation to undertake an effort that would assist policy-
makers in setting research and development priorities more 
systematically. It occurs to me that this is something the 
National Science Board should do as part of the Board's effort 
to broaden its activities in science and engineering policy 
development. Would you agree that the Board is the appropriate 
venue for such an exercise and would you be willing to take 
this on for the committee?
    Dr. Kelly. Yes, I would agree. In fact, it's clearly 
covered in the statute under NSF that it's an appropriate 
authority for the Board and would be more than happy to take on 
that kind of a responsibility. I think it is, if you look at 
the longitudinal views of the allocation of scientific 
resources in the country over the last 30, 40 years, you can 
see that we can do a much more effective job in allocating our 
scientific resources and we really need to develop mechanisms 
for evaluating the benefits vis-a-vis the investments in 
scientific research. And we would be happy to undertake that.

                plant genome and funding large projects

    Mr. Walsh. Very good. Thank you.
    Plant genome research, NSF has requested $55 million for 
continued plant genome research. Of this amount, nearly $25 
million will support up to 12 centers. The $5 million request 
represents an increase of $5 million over 1999 and $15 million 
over the 1998 level. As I recall, NSF's actual request for 
1998, was just $20 million. I am a strong supporter of this 
research program. I've actually visited the center at Geneva 
for apples at Cornell. It's fascinating. It's absolutely 
fascinating.
    Dr. Colwell. It is. It's very exciting.
    Mr. Walsh. But I'm also concerned of making available large 
sums in a short time frame sometimes leads to disjointed and 
un-focused research. Can you tell us about the progress of this 
research program, including how you've handled large increases 
of appropriations?
    Dr. Colwell. Actually, it's been very successful. And, as I 
explained earlier, we don't simply just throw the money out. We 
have a very careful planning of the request for proposals by 
bringing in the advisory committees and having workshops, 
developing it so that it addresses what the community and the 
best minds think of the directions that can be most productive. 
Then the proposals are very carefully scrutinized through the 
peer review process, evaluations from outside experts. And 
then, once the awards are made, we bring the team together, and 
we make sure that they know each other, interact, and ask 
questions of each other to see whether the approaches that 
they're taking might be improved. And then, as the results are 
gathered, we bring them together periodically so that the 
results can be shared. Any unexpected findings can then be 
pursued with even greater vigor. So I think it works extremely 
well.
    And with the large projects, I must say that several 
astronomy projects, and the South Pole Station modernization 
are on time, and within budget. In fact, we're able to bring in 
more material than we expected and the New York Air National 
Guard has been fantastic. They have hit the ground running. 
There is noindication of any problems whatsoever. The large 
telescope program, Gemini, is on time and on schedule. First Light 
occurred as scheduled. And we'll have a dedication in June. So we have 
demonstrated we can handle those large bites very well.
    Mr. Walsh. Some of our staff was just down at the South 
Pole and they gave us a very positive report. I found it very 
interesting the visit that I had in Geneva. They said, with a 
little bravado, that if there was really an Adam and Eve, they 
had the apple. [Laughter.]
    They determined that this area was the first place ever to 
grow apples. And they didn't grow them, obviously. They were a 
wild species. But they say they've got those genes. So who 
knows. Maybe we'll all get in trouble again. [Laughter.]
    Dr. Colwell. I won't touch that one.

                    earthquake engineering research

    Mr. Walsh. Earthquake engineering research. Included in the 
budget request for major research equipment is $7.7 million for 
the network for earthquake engineering simulation. This is a 
new start. Can you give us some background on what this program 
is all about?
    Dr. Colwell. Yes, this program is one that has moved to, 
instead of building a huge platform, development of a team work 
effort and approach to it. And what we've done is moved more 
toward simulation, computer simulation of materials and brought 
together an inter-disciplinary team. I'll ask my engineer 
deputy director to comment further?
    Dr. Bordogna. The genesis of this was about five years ago 
actually out of the Committee on Science, the desire to have a 
significantly large shake table to shake structures to help 
design hazard mitigation in that for earthquakes. But also 
other things. But with the focus on earthquakes. If you priced 
that out, it was about $200 million. And then, to make a long 
story short, began to think of alternative ways using 
technology and thinking. Internet was coming online. That was 
about five years ago. Super-computing centers becoming more 
capable. And we decided what we ought to do is build a virtual 
machine, taking advantage of all the machines that existed 
around the country, 30 some universities and linking those 
through Internet. And that's what we're going to do.
    We're going to build this machine for $82 million instead 
of $200 million. And get it so that itself would be a machine, 
and it's also going to be used to educate students and those 
who do the research. It will bring people together. We have 
three earthquake centers which are going to really make this 
all work. The heads of those centers by the way, as Dr. Colwell 
mentioned about the genome, they work together. So we're 
building a system here too.
    So there's a very important intellectual piece of this. We 
haven't been able in the structural engineering area to 
simulate structures yet such that you can do an experiment on a 
small shake table, with a model in a scale of up to a big room. 
So we hope to be able to solve that theoretical issue for this 
too.

                         data access provision

    Mr. Walsh. I have just one last question. And since nobody 
else is here, I'm going to ask it. [Laughter.]
    Let me just say that I note that last week, the National 
Science Board met. And the Board adopted a resolution which 
expressed serious concern with the provision in last year's 
Omnibus Appropriation Act that would use the Freedom of 
Information Act process to compel the premature release of any 
research data developed under a Federal grant.
    As you know, legislation has been introduced in this 
Congress to repeal this provision and I'm a cosponsor of that 
legislation. Can you share with the committee, either Dr. 
Colwell or Dr. Kelly, your views?
    Dr. Colwell. Yes, I'll comment that I am very pleased that 
you cosponsored that bill because this can be a very dangerous 
slippery slope that we are going to be sliding down. If you 
have to release data, literally as you get it out of the 
machine, or as you get it from the patient or whatever the case 
may be, without being able to repeat experiments,without being 
able to accumulate the data, interpret it, and then subject it to peer 
review through a publication and a journal, you will be releasing data 
that can be misinterpreted, mis-used. You might, for example, and it's 
not uncommon, in the first few experiments, think, gosh, you've got a 
terrific drug that's going to do great things in curing a disease, but 
if you don't do enough experiments, that may not be the case. Premature 
release could lead to very serious human tragedy.
    I know that the Science Board spoke very strongly about it. 
So I'll ask Dr. Kelly to elaborate?
    Dr. Kelly. Yes, we discussed this at great length and a 
good percentage of the Board are scientific researchers. They 
really reacted in a kind of horror. And there's whole kinds of 
questions of how you define data when it's released, at what 
part in the process, and that the questions of premature 
release can result in conclusions that are unwarranted. And we 
were even discussing earlier this morning, the notion of the 
pressure on young researchers to publish early without even a 
peer review process. This would be even prior to that so that 
the dangers are greatly heightened.
    It also has economic implications. Any data that is 
released prematurely is almost universally ineligible for 
patents in Europe. So any of the--this is a large economic 
activity that goes in our innovations in the world markets and 
it would have impacts for domestic patents, but even greater 
ones for international patents. So we looked at it in terms of 
scientific research. We looked at it in terms of economics. It 
really is a piece of legislation that needs to be repealed.
    Mr. Walsh. So have you had a chance to review the new 
statute that's been proposed? And, if so, do you support it?
    Dr. Kelly. I have not had the opportunity to review the new 
statute that's proposed.
    Dr. Colwell. This is at the OMB? Well, it's a heroic 
attempt to try to sway some of the----
    Dr. Kelly. There's a difference between the OMB regs and 
the new statute.
    Dr. Colwell. Oh, I'm sorry.
    Mr. Walsh. Well, the law that's been proposed?
    Dr. Colwell. Yes, well, it's a serious----
    Mr. Walsh. Or provision?
    Dr. Colwell. No, I'm sorry. But the preliminary view is 
that this is a very good thing to do.
    Mr. Walsh. Fine. Joe, do you have any last question or 
comment?
    Mr. Knollenberg. I think I've completed mine. I can submit 
the others for the record. Thank you.
    Dr. Colwell. Thank you.
    Mr. Walsh. All right. Well, thank you very much for 
spending the morning with us today. And we look forward to 
working with you on the budget.
    Dr. Colwell. Thank you very much, Mr. Chairman.
    Dr. Kelly. Thank you, Mr. Chairman.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                               I N D E X

                              ----------                              

                      National Science Foundation

                                                                   Page
Access to Research Opportunities.................................    48
Advanced Technology Education Program............................    28
Advanced Technology Program......................................    21
Agency Partnerships..............................................    47
Award Summary: Top 50 Institutions FY-1998.......................    49
Basic Research in Information Technology.........................   116
Biocomplexity and the Environment................................    37
Biocomplexity in the Environment.............................. 110, 113
Collaboration with the Department of Agriculture.................   104
Computer Time Access.............................................    36
Data Access......................................................    32
Data Access Provision............................................   123
Distinction Between IT2 and Previous Investments.................    25
EPA/NSF Partnership for Environmental Research...................    38
EPSCOR......................................................... 42, 108
Earthquake Engineering Research..................................   122
Ecology and Oceanography of Harmful Algal Blooms.................    38
Engineering Research Centers.....................................    41
Engineering Research Design......................................   115
Environmental Research...........................................   120
Ethics in Scientific Conduct.....................................    23
Funding Research and Development.................................    20
Genesis of IT2 Initiative........................................    26
H-1B Nonimmigrant Petitioner Fees................................    31
H-1(B) Scholarship Support.......................................    30
High-Performance Instrumented Airborne Platform for Environmental 
  Research (HIAPER)..............................................   110
Information Technology Initiative................................    24
Instrumentation Needs of Community Colleges and Minority Serving 
  Institutions...................................................    32
Interagency Education Research Initiative (IERI).................   104
Justification of Estimates of Appropriations to the Congress.....   173
K-12 Education...................................................    47
Minority Education Programs......................................    40
Minority and Graduate Education Programs.........................    38
Natural Hazards Research.........................................   114
NSB on the Sharing of Research Data..............................    35
NSF Comments on Sharing Research Data............................    34
National Science Foundation FY 2000 GPRA Performance Plan........   432
Opening Remarks of Mr. Walsh.....................................     1
Opening Statement of Dr. Colwell.................................    11
Opening Statement of Dr. Kelly...................................     2
Opportunity Fund.................................................   112
PACI Competition.................................................    27
Partnership With EPA.............................................    38
Partnerships in Environmental Research...........................    37
Partnerships With Other Agencies.................................    43
Peer Review of Environmental Research............................   107
Plant Genome and Funding Large Projects..........................   121
Priority Setting in Research and Development.....................   121
Questions for the Record from Rep. Walsh.........................   125
    Arctic Research Commission (ARC).............................   142
    Biocomplexity................................................   131
    Earthquake Engineering Research..............................   146
    Funding for Polar Programs...................................   139
    Global Environmental Change and the US Global Change Research 
      Program....................................................   133
    Globec Program...............................................   147
    High Performance Instrumented Airborne Platform..............   145
    Highlights of Antarctic Season...............................   140
    Information Technologies.....................................   125
    Information Technology Initiative............................   130
    Management of Large Projects.................................   150
    Math and Science Education...................................   136
    NSF and NIH Funding..........................................   149
    Opportunity Fund.............................................   150
    Plnt Genome Research.........................................   144
    Polar Research...............................................   138
    Priorities for R&D Funding Across Federal Agencies...........   148
    Science Priorities...........................................   135
    Support for South Pole Station Modernization.................   139
    Terascale Computing System...................................   127
    Transition from Navy Logistical Support of USAP..............   141
    United States Weather Research Program.......................   145
Questions for the Record from Rep. Meek..........................   152
    Graduate Education Programs..................................   152
    Human Resource Development--Minority Scientists..............   155
    National High Magnetic Field Laboratory......................   156
Questions for the Record from Rep. Frelinghuysen.................   158
    Biocomplexity in the Environment.............................   162
    H-1B Nonimmigrant Petitioner Fees............................   158
    Informal Science Education...................................   158
    Information Technology Centers...............................   161
    Intellectual Infrastructure..................................   161
    Interagency Coordination of Environmental Research...........   162
    Large Hadron Collider........................................   159
    Polar Programs...............................................   160
    NSF 50th Anniversary.........................................   163
    NSF Programs for Graduate Education..........................   163
    Support for Non-Academic Researchers.........................   163
Questions for the Record from Rep. Hobson........................   165
    Partnerships for Advanced Computational Infrastructure (PACI)   165
    Plant Genome Study...........................................   165
    Rent.........................................................   167
    Year 2000....................................................   167
Questions for the Record from Rep. Knollenberg...................   169
    Climate Change...............................................   169
    Merit Review.................................................   170
Questions for the Record from Rep. Price.........................   171
    Advanced Technology Education................................   171
    H-1B Visa Fee Scholarships...................................   171
Regional Outreach................................................    45
Research and Development Funding Trends..........................    21
Research Experiences for Undergraduates..........................    51
Research Experiences for Undergraduates (REU) Sites..............    52
    Atmospheric Sciences.........................................    53
    Biological Sciences..........................................    55
    Chemistry....................................................    65
    Computer and Information Science and Engineering.............    72
    Earth Sciences...............................................    74
    Engineering..................................................    76
    Mathematical Sciences........................................    85
    Materials Research...........................................   100
    Ocean Sciences...............................................    88
    Physics......................................................    94
Research Instrumentation Needs...................................    31
Research on Climate Change.......................................   118
Research on Learning.............................................   103
Research on the Human Brain......................................   117
Science and Math Education.......................................    44
Utilization of Research Results..................................   106

                                <greek-d>

</pre></body></html>
